App. 1
ATTORNEY FOR APPELLANT ATTORNEYS FOR APPELLEE
Michael J. Laux
John L. Wilkerson
Arkansas Municipal
Laux Law Group
Little Rock, Arkansas
League Legal
North Little Rock,
Arkansas
United States Court of Appeals
For the Eighth Circuit
No. 18-2982
Tamatrice Williams
Plaintiff - Appellant
v.
City of Sherwood
Defendant - Appellee
Appeal from United States District Court
For the Eastern District of Arkansas - Little Rock
Submitted: December 10, 2019
Filed: January 28, 2020

App. 2
Before ERICKSON, ARNOLD, and KOBES, Circuit
Judges.
ARNOLD, Circuit Judge.
More than two decades ago, Tamatrice
Williams wrote four checks on insufficient funds in
violation of Arkansas law. See Ark. Code Ann. § 5-37302(a). She alleges that, as a result, she got “caught in
a never-ending cycle of court proceedings” over the
next twenty years in the Sherwood District Court,
which resulted in numerous fines, arrests, and days in
jail. She sued the City of Sherwood under 42 U.S.C.
§ 1983, claiming that it had jailed her without
inquiring into whether she had the means to pay the
fines imposed and without appointing counsel for her.
The district court1 dismissed Williams’s claims on the
ground that a judgment in her favor “would
necessarily imply the invalidity of h[er] conviction or
sentence,” see Heck v. Humphrey, 512 U.S. 477, 487
(1994), and Williams appeals. Reviewing de novo, see
Mick v. Raines, 883 F.3d 1075, 1078 (8th Cir. 2018),
we affirm, though on a different ground. See Duffner
v. City of St. Peters, 930 F.3d 973, 976 (8th Cir. 2019).
At this stage we accept the factual allegations
in the complaint as true and view them in a light most
favorable to Williams. See Barton v. Taber, 820 F.3d
958, 963 (8th Cir. 2016). According to Williams, she
and others lined up for cattle-call appearances before
1 The

Honorable James M. Moody Jr., United States
District Judge for the Eastern District of Arkansas.

App. 3
the judge of what was called the hot-check division of
the Sherwood District Court. Some defendants faced
new charges while others appeared for periodic
“review hearings” to update their progress in making
payments toward previously imposed fines.
Proceedings were closed to the public, including
family and friends. To be allowed inside the
courtroom, defendants had to sign forms waiving
representation by counsel.
Williams asserts in her complaint that the city
“treated each review hearing based on [a] prior
conviction as an opportunity to open a new, separate,
stand-alone criminal case, thereby purportedly
authorizing the court to impose new and duplicative
court costs, fines, and fees on the same hot check
defendant.” So when someone failed to appear for a
review hearing or failed to make payments toward a
fine, the city would issue an arrest warrant and open
a new criminal case, which allowed the city to impose
fines above and beyond the statutory limit for a hotcheck conviction. The city’s police department,
according to Williams, carried out the arrest warrants
by tracking down defendants and ordering them to
make payments on the spot or be taken to jail.
Williams alleges that there was no inquiry into
whether defendants had the ability to pay the fines
imposed. Instead, when defendants fell behind on
payments, the judge would order them jailed for up to
120 days or until outstanding debts were paid.
Williams maintains that fines and fees made up a
significant portion of the city’s revenue.

App. 4
Williams also maintains that she and her
family paid several thousand dollars in fines and that
she has been taken to jail in front of her young
children on several occasions: She estimates she has
been arrested eight different times and spent 160 days
in jail. Williams escaped the debt cycle when the judge
released her from her outstanding obligations to the
city a mere two days after a putative class action was
filed against the city and the judge involving the same
practices that Williams challenges here. See Dade v.
City of Sherwood, 4:16-CV-602-JM-JJV. The judge
and the city eventually settled the Dade lawsuit,
agreeing, among other things, to inquire into a
person’s ability to pay fines, to provide clearer advice
on the right to counsel, and to maintain publicly
accessible video recordings of the proceedings in the
hot- check court. In the settlement agreement the city
agreed to be bound only to the extent it employs
someone, or there is a city official, who has any
involvement or control over the complained-of
practices.
In Granda v. City of St. Louis, the plaintiff sued
the City of St. Louis and a municipal judge after the
judge jailed her for her daughter’s truancy. 472 F.3d
565, 566 (8th Cir. 2007). After the case was dismissed,
the plaintiff argued on appeal that the city was liable
for the judge’s decision because the judge was the final
municipal policymaker regarding truancy matters.
We explained, however, that even though the mayor
appointed the judge, who was required by ordinance
to report data to the mayor about ordinance violations
and confer with city officials about ordinance
enforcement, the judge was not a final municipal

App. 5
policymaker, if he was a municipal policymaker at all.
Id. at 568–69. We explained that the municipal court
was a division of the state circuit court, where
decisions of the municipal court could be reviewed. We
also emphasized that the judge’s jailing of the plaintiff
“was a judicial decision made in a case that came
before [the judge] on a court docket,” and the plaintiff
failed to cite a single case where a municipality had
been held liable for such a decision. Id. at 569.
Williams’s claims are somewhat different
though not meaningfully so. Her counsel explained
two important features of Williams’s case at oral
argument. First, despite occasionally broader
language in her complaint, Williams’s counsel said
she was asserting that her constitutional rights were
violated on account of an unconstitutional municipal
policy, not a custom or practice. A claim against a
municipality under § 1983 is sustainable only if there
is alleged a constitutional violation “committed
pursuant to an official custom, policy, or practice of
the city.” See id. at 568. Second, Williams’s counsel
was careful to emphasize that Williams was not
alleging that the judge was the final policymaker here;
instead, Williams alleges that the city council and
mayor were the final policymakers and that the judge
was merely an agent carrying out the city’s
unconstitutional policies.
We fail to see how this can be, at least in regard
to judicial actions taken by a judge like the one in this
case. We recognize that the city paid the judge’s salary
and funded the Sherwood District Court. But the
judicial decisions of a duly elected judge are not the

App. 6
kind of decisions that expose municipalities to § 1983
liability. Neither the city council nor the mayor has
the power to set judicial policy for Arkansas district
court judges or the power to ratify their judicial
decisions, even if the city’s “policymakers knew of the
judge’s conduct and approved of it.” See DeLeon v. City
of Haltom City, 106 F. App’x 909, 911 (5th Cir. 2004).
Or as another circuit court has held, “[a] municipality
cannot be liable for judicial conduct it lacks the power
to require, control, or remedy, even if that conduct
parallels or appears entangled with the desires of the
municipality.” Eggar v. City of Livingston, 40 F.3d
312, 316 (9th Cir. 1994).
Another difficulty with Williams’s claims is
that she merely speculates vaguely and conclusorily
that the city council and mayor had developed
unconstitutional policies. The only possible marker of
a municipal policy that Williams identifies in her
complaint is a city ordinance that created a position at
the judge’s request to help with serving the warrants
associated with the hot-check court and thereby help
bring in revenue. But such an ordinance demonstrates
merely that events occurring in the court “parallel[ed]
or appears entangled with the desires of the
municipality,” see id., or that the city knew of and
approved of the judge’s conduct. See DeLeon, 106 F.
App’x at 911. Critically, at no point does Williams
identify an ordinance or other municipal action
whereby the city directs someone to commit an act
that is a constitutional violation or, with deliberate
indifference to known or obvious consequences, directs
someone to take an action that leads to a violation of
constitutional rights. See Hollingsworth v. City of St.

App. 7
Ann, 800 F.3d 985, 992 (8th Cir. 2015). Williams has
not alleged that city policymakers deliberately set
itself on a course that would lead to her constitutional
rights being violated. See Szabla v. City of Brooklyn
Park, 486 F.3d 385, 390 (8th Cir. 2007) (en banc).
Instead, Williams relies on conclusory
assertions that the city council and mayor somehow
created some unspoken policy and tasked the judge
with carrying it out. But as another circuit recently
explained in a case containing similar conclusory
allegations, “any connection between the judicial acts
and the [city officials] is too chimerical to be
maintained.” McCullough v. Finley, 907 F.3d 1324,
1335 (11th Cir. 2018). To the extent Williams argues
that, by agreeing to act as an agent for the city, the
judge and city necessarily conspired to violate
constitutional rights, we do not think the allegations
of any such conspiracy are specific enough to survive
a motion to dismiss. See Johnson v. Perdue, 862 F.3d
712, 718 (8th Cir. 2017); Marti v. City of Maplewood,
57 F.3d 680, 685 (8th Cir. 1995). Vague allegations of
a conspiracy to violate constitutional rights do not
plausibly support a claim. See McCullough, 907 F.3d
at 1334–35.
We find it insignificant that the city had
previously settled the Dade lawsuit, a fact that at first
glance seems to implicate the city in the goings-on in
the hot-check court. But litigants settle lawsuits for a
variety of reasons, especially when they are political
actors sometimes subject to public pressure to act in a
certain way. At no point did the city admit that it had
devised, or was responsible for, an unconstitutional

App. 8
policy; in fact, the settlement agreement indicates to
the contrary.
We therefore uphold the district court’s
dismissal of Williams’s claims about the court’s failure
to inquire into her indigency and failure to appoint
counsel, along with her related, derivative claims
about the practices in the Sherwood District Court.
Affirmed.

App. 9
ATTORNEY FOR APPELLANT ATTORNEYS FOR APPELLEE
Michael J. Laux
John L. Wilkerson
Laux Law Group
Arkansas Municipal
Little Rock, Arkansas
League Legal
North Little Rock,
Arkansas
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
TAMATRICE WILLIAMS
V.

PLAINTIFF

4:18CV00097 JM

CITY OF SHERWOOD, ARKANSAS DEFENDANT
ORDER
Pending is the Defendant’s motion to dismiss.
(Docket #5). Plaintiff has responded and Defendant
has filed a reply. For the reasons set forth herein, the
motion is granted.
Plaintiff filed suit against the City of Sherwood,
Arkansas pursuant to 42 U.S.C. § 1983 alleging that
the City’s post judgment municipal procedures to
collect money from hot check defendants violated her
constitutional rights. Plaintiff “alleges that [the
City’s] procedures for enforcing those costs, fees and
fines, which included incarceration and threats of
incarceration,” constituted an unconstitutional
municipal policy. ECF No. 1 ¶46. The City moves to
dismiss Plaintiff’s Complaint pursuant to Fed. R. Civ.
P. 12(b)(6) for failure to state a claim upon which relief
can be granted.

App. 10
To survive a motion to dismiss under Rule
12(b)(6), “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S.
662, 678(2009). A claim is plausible on its face “when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Iqbal,
556 U.S. at 678. However, courts are “not bound to
accept as true a legal conclusion couched as a factual
allegation” and such “labels and conclusions” or
“formulaic recitation[s] of the elements of a cause of
action will not do.” Id. (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007)) (internal
quotation marks omitted). The Court must accept as
true all factual allegations set forth in the complaint,
drawing all reasonable inferences in the plaintiff's
favor. See Ashley Cnty., Ark. v. Pfizer, Inc., 552 F.3d
659, 665 (8th Cir. 2009).
“Municipal liability under section 1983 is
appropriate in cases where a municipal ‘policy’ or
‘custom’ causes the constitutional violation.” Braswell
v. Washington Cty., No. 5:14-CV-05387, 2016 WL
1178795, at 9 (W.D. Ark. Mar. 23, 2016), appeal
dismissed (June 14, 2016) citing, Doe v. Washington
Cnty., 150 F.3d 920, 922 (8th Cir. 1998); and Monell v.
Dep’t of Soc. Servs. of City of New York, 436 U.S. 658
(1978). To succeed on her claim, Plaintiff must
establish that the city “acted to inflict an injury
through an official proclamation of the municipality's
officers (officials whose edicts or acts represent official
policy) or through custom” and that she incurred
“constitutional injury.” Braswell at 9, citing, Bechtel v.

App. 11
City of Belton, Mo., 250 F.3d 1157, 1160 (8th Cir.
2001).
Plaintiff alleges that the city’s procedures for
enforcing the “costs, fees and fines [from hot check
violators] which included incarceration and threats of
incarceration, were invalid and unconstitutional”
ECF No. 1 ¶46; and, “that her injuries were caused by
post-judgment procedures employed by [the city] to
incarcerate persons, such as Plaintiff, who were
unable to pay excessive costs, fees and fines” Id. at
¶47. Plaintiff “challenges the improper procedures
that culminated in her post-judgment incarceration.”
Id. at ¶ 48. Plaintiff claims to have been arrested on
approximately eight (8) occasions, resulting in about
one-hundred and sixty (160) days of incarceration,
from four (4) bounced checks. Id at ¶ 59. The latest
incarceration began in December 2014 and ended in
“late January, 2015.” Id. at ¶ 62.
In Heck v. Humphrey, 512 U.S. 477 (1994), the
Court held that, if a judgment in the plaintiff’s favor
would necessarily imply the invalidity of his
conviction or sentence, then the plaintiff cannot bring
a § 1983 claim until that conviction or sentence is
invalidated by the highest state court or a federal
habeas court. Plaintiff contends that she is not
challenging her conviction or sentence, but instead,
challenges the procedures through which she was
fined and incarcerated. However, the Supreme Court
in Edwards v. Balisok, 520 U.S. 641 (1997) applied
Heck to a prisoner’s due process challenge to the
procedures of a prison disciplinary hearing which
resulted in the deprivation of the prisoner’s good-time
credits and thus lengthened his confinement. As in
Heck, the Supreme Court concluded that the

App. 12
prisoner’s claims, would “necessarily imply the
invalidity of the punishment imposed” and held that
the claim was “not cognizable under § 1983.” Id. at
648. Finally, the fact that Plaintiff’s incarceration was
for a short time, does not preclude the applicability of
Heck. In Newmy v. Johnson, 758 F.3d 1008, 1009 (8th
Cir.) cert. denied, 135 S.Ct. 774, 190 L.Ed.2d 627
(2014) the Eighth Circuit examined whether Heck
should
apply
where
a
plaintiff’s
alleged
unconstitutional imprisonment was so short that
habeas relief was, as a practical matter, unavailable.
The Court concluded that Heck applies to bar a § 1983
action, even if the period of imprisonment was so short
as to render habeas or other post revocation relief
impossible.1
Applying Heck, the court finds that the
favorable-termination rule bars Plaintiff’s suit. If
Plaintiff’s challenge to the procedures imposed by the
City through which Plaintiff was fined and
incarcerated, were to succeed, it “would necessarily
imply the invalidity of [her] conviction or sentence.”
Heck, 512 U.S. at 487.
For these reasons, the city’s motion to dismiss
is GRANTED.
IT IS SO ORDERED this 17th day of August,
2018.
/s/ James M. Moody Jr.
1 See also Entzi v. Redmann, 485 F.3d 998, 1003 (8th
Cir. 2007) (quoting Heck, 512 U.S. at 490 n. 10) (“the principle
barring collateral attacks–a longstanding and deeply rooted
feature of both the common law and our own jurisprudence–is
not rendered inapplicable by the fortuity that a convicted
criminal is no longer incarcerated.”).

App. 13
James M. Moody Jr.
United States District Judge

App. 14
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2982
Tamatrice Williams
Appellant
v.
City of Sherwood
Appellee
Appeal from U.S. District Court for the Eastern
District of Arkansas - Little Rock
(4:18-cv-00097-JM)
ORDER
The petition for rehearing en banc is denied.
The petition for rehearing by panel is also denied.
March 18, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App. 15
STATUTES
42 U.S. Code § 1983. Civil Action for deprivation
of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of the
District of Columbia.
(R.S. §1979; Pub. L. 96–170, §1, Dec. 29, 1979, 93
Stat. 1284; Pub. L. 104–317, title III, §309(c), Oct. 19,
1996, 110 Stat. 3853.)

App. 16
Ark. Code 16-17-1113. Reorganization of local
district courts to state district courts as of
January 1, 2021
(a)

(b)

(1) Beginning January 1, 2021, the following
cities and counties that are currently served by
local district courts pursuant to § 16-17-901 et
seq. shall be reorganized as state district courts
and served by state district court judges as
assigned.
(2) The new state district court judgeships
created by this section shall become effective
January 1, 2021, and shall be placed on the
ballot to be elected in the 2020 nonpartisan
judicial election from the newly constructed
state district court district.
(3) The cities and counties that were previously
served by local district courts and will be served
by state district courts shall comply with the
cost-sharing requirements established in § 1617-1106, effective January 1, 2021.
(1) The Seventh Judicial District shall be
composed of the counties of Franklin and
Johnson.
(2) The Seventh District shall have six (6)
departments as follows:
(A) One (1) located in Charleston;
(B) One (1) located in Ozark;
(C) One (1) located in Altus;
(D) One (1) located in Clarksville;
(E) One (1) located in Coal Hill; and
(F) One (1) located in Lamar.

App. 17

(c)

(d)

(3) The Seventh Judicial District shall be
served by one (1) state district court judge.
(4) The Seventh Judicial District judge shall be
elected districtwide.
(5) The Seventh Judicial District court shall
have districtwide jurisdiction.
(1) The Eleventh Judicial District shall be
composed of the counties of Randolph, Sharp,
and Lawrence.
(2) The Eleventh District shall have seven (7)
departments as follows:
(A) One (1) located in Pocahontas;
(B) One (1) located in Ash Flat;
(C) One (1) located in Cherokee Village;
(D) One (1) located in Walnut Ridge;
(E) One (1) located in Hoxie;
(F) One (1) located in Black Rock; and
(G) One (1) located in Portia.
(3) The Eleventh Judicial District shall be
served by two (2) state district court judges.
(4) The Eleventh Judicial District judges shall
be elected districtwide.
(5) The Eleventh Judicial District courts shall
have districtwide jurisdiction.
(1) The Twelfth Judicial District shall be
composed of the counties of Logan, Yell, and
Conway.
(2) The Twelfth District shall have nine (9)
departments as follows:
(A) One (1) located in Morrilton;
(B) One (1) located in Menifee;
(C) One (1) located in Oppelo;

App. 18
(D) One (1) located in Paris;
(E) One (1) located in Booneville;
(F) One (1) located in Magazine;
(G) One (1) located in Danville;
(H) One (1) located in Plumerville; and
(I) One (1) located in Dardanelle.
(3) The Twelfth Judicial District shall be served
by one (1) state district court judge.
(4) The Twelfth Judicial District judge shall be
elected districtwide.
(5) The Twelfth Judicial District court shall
have districtwide jurisdiction.
(e) [Repealed.]
(f) [Repealed.]
(g)
(1) The Fifteenth Judicial District shall be
composed of the counties of Jackson and
Woodruff.
(2) The Fifteenth District shall have eight (8)
departments as follows:
(A) One (1) located in Newport;
(B) One (1) located in Diaz;
(C) One (1) located in Swifton;
(D) One (1) located in Tuckerman;
(E) One (1) located in Augusta;
(F) One (1) located in Cotton Plant;
(G) One (1) located in McCrory; and
(H) One (1) located in Patterson.
(3) The Fifteenth Judicial District shall be
served by one (1) state district court judge.
(4) The Fifteenth Judicial District judge shall
be elected districtwide.
(5) The Fifteenth Judicial District court shall
have districtwide jurisdiction.

App. 19
(h) [Repealed.]
(i)
(1) The Seventeenth District is composed of the
counties of Clay and Greene.
(2) The Seventeenth District has five (5)
departments as follows:
(A) One (1) located in Paragould;
(B) One (1) located in Marmaduke;
(C) One (1) located in Corning;
(D) One (1) located in Piggott; and
(E) One (1) located in Rector.
(3) The Seventeenth District is served by one (1)
state district court judge.
(4) The Seventeenth District judge is elected
districtwide.
(5) The Seventeenth District court has
districtwide jurisdiction.
(j)
(1) The Twenty-Fourth Judicial District shall
be composed of the counties of Scott, Polk, and
Montgomery.
(2) The Twenty-Fourth Judicial District shall
have three (3) departments as follows:
(A) One (1) located in Waldron;
(B) One (1) located in Mena; and
(C) One (1) located in Mt. Ida.
(3) The Twenty-Fourth Judicial District shall
be served by one (1) state district court judge.
(4) The Twenty-Fourth Judicial District judge
shall be elected districtwide.
(5) The Twenty-Fourth Judicial District court
shall have districtwide jurisdiction.

App. 20
(k)

(l)

(1) The Twenty-Fifth District is composed of the
counties of St. Francis and Cross.
(2) The Twenty-Fifth District has six (6)
departments as follows:
(A) One (1) located in Forrest City;
(B) One (1) located in Madison;
(C) One (1) located in Palestine;
(D) One (1) located in Wynne;
(E) One (1) located in Cherry Valley; and
(F) One (1) located in Parkin.
(3) The Twenty-Fifth District is served by two
(2) state district court judges.
(4) The Twenty-Fifth District judges are elected
districtwide.
(5) The Twenty-Fifth District courts have
districtwide jurisdiction.
(1) The Thirtieth District shall be composed of
Lonoke County.
(2) The Thirtieth District shall have six (6)
departments as follows:
(A) One (1) located in Cabot;
(B) One (1) located in Ward;
(C) One (1) located in Austin;
(D) One (1) located in Lonoke;
(E) One (1) located in England; and
(F) One (1) located in Carlisle.
(3) The Thirtieth District shall be served by two
(2) state district court judges.
(4) The Thirtieth District court judges shall be
elected districtwide.
(5) The Thirtieth District courts shall have
districtwide jurisdiction.

App. 21
(m)

(1) The Thirty-First District is composed of the
counties of Pulaski and Perry.
(2) The Thirty-First District has twelve (12)
departments as follows:
(A) One (1) located in Jacksonville, to be
known as “Jacksonville District Court”;
(B) Four (4) located in Little Rock, to be
known as:
(i) “Little Rock District Court —
First Division”;
(ii) “Little Rock District Court —
Second Division”;
(iii) “Little Rock District Court —
Third Division”; and
(iv) “Pulaski County District
Court”;
(C) One (1) located in Maumelle, to be
known as “Maumelle District Court”;
(D) Two (2) located in North Little Rock,
to be known as:
(i) “North Little Rock District
Court — First Division”; and
(ii) “North Little Rock District
Court — Second Division”;
(E) One (1) located in Sherwood, to be
known as “Sherwood District Court”;
(F) One (1) located in Wrightsville, to be
known as “Wrightsville District Court”;
(G) One (1) located in Cammack Village,
to be known as “Cammack Village
District Court”; and
(H) One (1) located in Perryville, to be
known as “Perryville District Court”.

App. 22
(3) The Thirty-First District shall be served by
eight (8) state district judges. All the following
judges shall be elected districtwide and shall
have districtwide jurisdiction:
(A) The Jacksonville District Court and
the Maumelle District Court shall be
served by one (1) judge;
(B) The Little Rock District Court —
First Division shall be served by one (1)
judge;
(C) The Little Rock District Court —
Second Division shall be served by one
(1) judge;
(D) The Little Rock District Court —
Third Division, the Wrightsville District
Court, and the Cammack Village District
Court shall be served by one (1) judge;
(E) The North Little Rock District Court
— First Division shall be served by one
(1) judge;
(F) The North Little Rock District Court
— Second Division shall be served by one
(1) judge;
(G) The Pulaski County District Court
shall be served by one (1) judge;
(H) The Sherwood District Court shall be
served by one (1) judge; and
(I) The Perryville District Court shall be
served by one (1) of the district court
judges
listed
under
subdivisions
(m)(3)(A)-(H) of this section.

App. 23
(n)

(o)

(1) The Thirty-Ninth Judicial District shall be
composed of the counties of Ouachita and
Columbia.
(2) The Thirty-Ninth Judicial District shall
have seven (7) departments as follows:
(A) One (1) located in Magnolia;
(B) One (1) located in Waldo;
(C) One (1) located in Camden;
(D) One (1) located in East Camden;
(E) One (1) located in Bearden;
(F) One (1) located in Chidester; and
(G) One (1) located in Stephens.
(3) The Thirty-Ninth Judicial District shall be
served by one (1) state district court judge.
(4) The Thirty-Ninth Judicial District judge
shall be elected districtwide.
(5) The Thirty-Ninth Judicial District court
shall have districtwide jurisdiction.
(1) The Forty-First Judicial District shall be
composed of Garland County.
(2) The Forty-First District shall have three (3)
departments as follows:
(A) Two (2) located in Hot Springs; and
(B) One (1) located in Mountain Pine.
(3) The Forty-First Judicial District shall be
served by two (2) state district court judges.
(4) The Forty-First Judicial District judges
shall be elected districtwide.
(5) The Forty-First Judicial District courts shall
have districtwide jurisdiction.

App. 24
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
TAMATRICE
WILLIAMS,
Plaintiff,
v.
CITY OF SHERWOOD,
ARKANSAS,
Defendant.

FILED
Feb 01 2018
James W. McCormack,
Clerk
Case No. 4:18-cv-97-JM
***JURY TRIAL
DEMANDED

This case assigned to
District Judge Moody
and to Magistrate Judge
Deere
COMPLAINT
NOW
COMES,
Plaintiff, TAMATRICE
WILLIAMS, by and through her attorneys, LAUX
LAW GROUP, and for her cause of action against
CITY OF SHERWOOD, ARKANSAS, states as
follows:
JURISDICTION AND VENUE
1.
This action arises under the United
States Constitution, particularly under the Fourth,
Sixth and Fourteenth Amendments, and under
federal law, particularly 42 U.S.C. §§ 1983 and 1988.
This Honorable Court has jurisdiction by virtue of 28
U.S.C. §§ 1331 and 1343.

App. 25
2.
Venue is founded in this Court upon 28 U.S.C.
§ 1391 as the acts of which Plaintiff complains arose
in this District.
3.
The phrase "all relevant times" generally
refers to the time period from 1996 to approximately
August 25, 2016.
PARTIES
4.
At all relevant times, TAMATRICE
WILLIAMS ("PLAINTIFF") was a citizen of the
United States of America and was, therefore, entitled
to all legal and constitutional rights afforded citizens
of the United States of America. PLAINTIFF has been
a resident of Pulaski County all her life, and, at all
relevant times, resided in Little Rock, Arkansas.
5.
At all relevant times, CITY OF
SHERWOOD,
ARKANSAS
(hereafter
"SHERWOOD"), was a municipality and an
incorporated city, organized under the laws of the
State of Arkansas which, SHERWOOD, through its
agents, officials and policymakers, including members
of the Sherwood City Council: (a) funded, operated,
and created policies, practices and/or customs
followed by the Sherwood District Court and the
Sherwood Police Department (including paying the
salary of Sherwood District Court Judge Milas H.
Hale III, the public defender in the Sherwood District
Court, and court clerks and other administrative
staff); (b) funds and operates Sherwood District
Court's Hot Check Division and processing service
(including paying the salary of its director and the

App. 26
director's staff); (c) seeks, issues and executes
warrants arising out of "hot check" convictions and
other related criminal proceedings; (d) collects debts
from unpaid court costs, fines and fees arising out of
hot check convictions and other related criminal
proceedings in the Sherwood District Court; and (e)
contributes funds to the Pulaski County Jail, in part,
to pay for the incarceration of hot check defendants
sent by the Sherwood District Court.
6.
At all relevant times, the Sherwood City
Council (hereafter "City Council") was a legislative
governing body which consisted of eight (8) members.
Pursuant state statute, SHERWOOD, through its
agents, officials and policymakers, including members
of the City Council, is empowered to make and publish
bylaws or ordinances, not inconsistent with the law of
the state, for carrying into effect or discharging the
powers or duties conferred by state statute. At all
relevant times, the City Council was empowered to
provide for the imposition of fines for the violation of
any of the ordinances of SHERWOOD, and the power
to permit imprisonment and the threat of
imprisonment to enforce fines for violations of
SHERWOOD ordinances in some circumstances. At
all relevant times, the City Council was responsible
for enacting and enforcing the official policies of
SHERWOOD.
7.
At all relevant times, SHERWOOD,
through its agents, officials and policymakers,
including members of the City Council, had a duty to
abide by the United States Constitution and not
violate the constitutional rights of citizens of the

App. 27
United States, such as PLAINTIFF. At all relevant
times, SHERWOOD, through its agents, officials and
policymakers, including members of the City Council,
operated under color of state law.
FACTUAL BACKGROUND
8.
For many years, SHERWOOD, through
its agents, officials and policymakers, including
members of the City Council, zealously prosecuted
misdemeanor violations of the Arkansas hot check
statute, creating a system used by local officials to
criminalize those who do not have enough money to
cover bounced checks. Through this system, a single
check for a nominal amount returned for insufficient
funds can be leveraged into many thousands of dollars
in court costs, fines and fees owed to SHERWOOD.
These costs are often borne by the poorest and most
disadvantaged citizens in the community, including
PLAINTIFF, who find themselves caught in a neverending cycle of court proceedings they do not
understand, payments they cannot make, arrests they
cannot avoid, and significant jail time, all because
they cannot afford to pay for their freedom.
9.
Under an informal agreement entered
into in the mid-1970s, the Sherwood District Court
has a virtual monopoly on the prosecution of
misdemeanor hot check violations that occur within
the Pulaski County. The Sherwood District Court has
been used by SHERWOOD to prosecute thousands
upon thousands of cases brought against those who
are often financially vulnerable citizens. More
importantly, SHERWOOD, through its agents,

App. 28
officials and policymakers, including members of the
City Council, have used the threat and reality of
arrest and incarceration as a tool to coerce payments
from those who are simply unable, through no fault of
their own, to pay court costs, fees and fines.
10.
In 1975, the then-Judicial District
Prosecuting Attorney and the then-municipal judges
in Pulaski County agreed that all misdemeanor cases
brought under the Arkansas hot check statute in
Pulaski County would be channeled through the
Sherwood Municipal Court, which is now the
Sherwood District Court. At all relevant times, the
Hot Check Division was physically located in a
separate building and had its own budget passed
separately by the City Council. On its public website,
SHERWOOD characterizes the Hot Check Division of
the Sherwood District Court as a Department of
SHERWOOD. At all relevant times, the individuals
who oversaw and operated the Hot Check Division of
the Sherwood District Court (with the exception of
Pulaski County assistant prosecutors) were all
employees of, and were paid by, SHERWOOD.
11.
Pursuant to the Sherwood Municipal
Code, SHERWOOD established the Sherwood District
Court and gave the court's district court judge,
including Judge Hale, his powers, jurisdiction,
functions, and duties. SHERWOOD established the
position of Chief Deputy Court Clerk and, by
ordinance, named the holder of that office as the
Director of SHERWOOD's Hot Check Division and
also established Deputy Court Clerk positions in both

App. 29
the Sherwood District Court and SHERWOOD's Hot
Check Division.
12.
At all relevant times, Judge Milas H.
Hale, III (hereafter "Judge Hale"), was the local
district court judge presiding in Sherwood District
Court, and presided over SHERWOOD's hot check
court. Judge Hale's salary was determined by and
paid by SHERWOOD. The court clerk and other court
administrative staff operate, and facilitate other
administrative functions of, the Sherwood District·
Court. All of the salaries and operational expenses of
the Sherwood District Court were paid by
SHERWOOD out of its general fund.
13.
Over 20 years ago, Arkansas enacted a
fines collection law intended to set out the procedures
to be followed for collecting fines imposed by courts,
codified at Arkansas Code Annotated, Title 16,
Subtitle 2, Chapter 13, Subchapter 7:
"[t]he
procedures
established
by
this
subchapter shall apply to the assessment and
collection of all monetary fines, however,
designated, imposed by... district courts for
criminal convictions ... " See Arkansas Code
Annotated§ 16-13-702.
Those procedures specifically required a court to take
into account a defendant's ability to pay when
imposing fines in the first instance and when
addressing a defendant's failure to make payments
previously ordered by the court.

App. 30
"Unless the defendant shows that his or her
default was not attributable to a purposeful
refusal to obey the sentence of the court or to a
failure on his or her part to make a good-faith
effort to obtain the funds required for payment,
the court may order the defendant imprisoned
in the county jail or other authorized institution
designated by the court until the fine or
specified part thereof is paid." See Ark. Code
Ann. § 16-13-703
*****
"If the court determines that the default in
payment of the fine is not attributable to the
causes specified in subsection (c) of this section,
the court may enter an order allowing the
defendant additional time for payment,
reducing the amount of each installment, or
revoking the fine or the unpaid portion thereof
in whole or in part." See Ark. Code Ann.§ 16-13703(d).
14.
However, at all relevant times,
SHERWOOD did not follow those procedures when
they sought to enforce court costs, fines, and fees
imposed by the Hot Check Division of the Sherwood
District Court. Instead SHERWOOD, through its
agents, officials and policymakers, including the
Sherwood District Court and Judge Hale, put in place
a hot check collection scheme that was designed to
maximize the amount of court costs, fines, and fees
imposed on individuals and that used the threat and
reality of incarceration to coerce individuals to pay

App. 31
these amounts, notwithstanding their inability to do
so.
PROCESS FOR THE SHERWOOD "HOT
CHECK" COLLECTIONS SCHEME
15.
At all relevant times, the Sherwood
District Court held hot check court every Thursday.
Starting before 7:00 am, individuals would form a line
that wound through the hallway of the small
courthouse, waiting to enter the sole courtroom. Some
of these individuals faced new hot check misdemeanor
charges, while others appeared for "review hearings,"
which were hearings in which the Sherwood District
Court monitored their progress in making payments
on court costs, fines, and fees previously imposed by
the Court. The proceedings were not open to the
public, and a hot check defendant's family and friends
were not allowed to accompany him or her into the
courtroom.
16.
At all relevant times, while hot check
defendants waited in line to enter into the Sherwood
District Court courtroom, they were presented with a
"Waiver of Counsel" form and a form requiring them
to provide their personal information. The hot check
defendants were told that they must fill out these
forms in order to be allowed into the courtroom.
Although the "Waiver of Counsel" form referred only
to hot check charges, court officials would often
proceed as if anyone who filled out the form had
waived his or her right to counsel for all purposes,
even if the person was appearing on other types of
charges or for other purposes.

App. 32
17.
At all relevant times, the Sherwood
District Court held no hearing on the closure of the
criminal proceedings to the public and did not
consider the effect of the closure on a defendant's right
to a public trial as required by the Sixth Amendment
of the United States Constitution. No recordings of the
proceedings were prepared and no transcript was
made available to the public. Court clerks did not even
post a list of the individuals who were to appear that
day in court. The secrecy shrouding the proceedings in
Sherwood District Court also ensured that violations
of hot check defendants' constitutional rights went
unchecked and unchallenged.
18.
Because the only persons allowed in the
courtroom were the judge, court clerks, prosecutors,
court bailiffs, a probation officer, and a public defense
attorney who did not actually represent the hot check
defendants, the hot check defendants did not have a
single advocate to whom to tum to understand and
assert their rights.
19.
Following a hot check conviction,
SHERWOOD treated each review hearing based on
this prior conviction as an opportunity to open a new,
separate, stand-alone criminal case, thereby
purportedly authorizing the court to impose new and
duplicative court costs, fines, and fees on the same hot
check defendant. Specifically, at all relevant times,
SHERWOOD maintained a policy, practice and/or
custom of seeking, issuing, and executing new,
separate post-conviction arrest warrants whenever a
defendant failed to make a payment of court costs,
fines, and fees or failed to appear at a review hearing.

App. 33
20.
SHERWOOD treated each of the new
arrest warrants as a separate "charging document"
associated with a new, stand-alone criminal matter
under a separate case number, with a whole new set
of associated court costs, fines, and fees. These
warrants often bore the signature of the clerk of court
and were not supported by oath or affirmation that
would establish probable cause for a crime. The
Sherwood District Court also assessed over $300 in
new and additional fees and costs on a hot check
defendant with each new warrant of arrest.
21.
Thus, if an individual failed to appear at
a "review hearing," the Sherwood District Court would
issue an arrest warrant and the Court's records would
then reflect a new, separately numbered criminal
prosecution for "failure to appear." Similarly, if an
individual missed a period payment under a payment
plan, the Sherwood District Court would issue an
arrest warrant and the Court's records would then
reflect a new, separately numbered criminal
prosecution for "Failure to Pay Contempt of Court." By
treating each of these proceedings as a new criminal
proceeding, the Sherwood District Court was able to
circumvent the limits on court costs, fines, and fees
that can be imposed on a single hot check conviction.
22.
At all relevant times, hot check
defendants before the Sherwood District Court were
afforded little to no due process for these new
"prosecutions." The previously convicted and
sentenced hot check defendants were often not
notified that they faced a new, separate criminal
charge or charges, not given an opportunity to defend

App. 34
themselves from the charges, not afforded counsel,
and/or notified of their right to appeal. Any hearings
on the new and separate "charges" were often
perfunctory and resolved in assembly-line fashion.
23.
Even when such hot check defendants
asserted or raised with the Sherwood District Court
that they were unable to pay the outstanding amounts
of court costs, fines, and fees, the court did not inquire
further as to the hot check defendant's ability to pay,
require that the State meet its burden of proof of
demonstrating that the hot check defendant could
pay, or make specific factual findings and a
determination that the hot check defendant could or
could not pay the amounts due. Pulaski County
prosecutors sat silently at the prosecution table and
failed to meet their burden of proof in the face of
evidence that the hot check defendant could not pay.
24.
Once Judge Hale determined that an
individual was guilty of the new charges, the
Sherwood District Court would then order that
individual to pay new and additional court costs, fines,
and fees, thereby using this procedure to leverage the
amount of court costs, fines, and fees imposed on a
single person. The Sherwood District Court then
imposed a new, revised payment plan, scheduled a
new "review hearing," and effectively started the
original post-conviction procedures all over again,
albeit with higher court costs, fines, and fees.
25.
If an individual who appeared in the
Sherwood District Court at any time after an original
hot check conviction had not made all of his or her

App. 35
payments, the Sherwood District Court Judge
threatened to jail the person if he or she did not make
the payments and directed the person either to
arrange for payment or to contact family members
who could make the payment on the person's behalf.
If the Sherwood District Court Judge decided to send
the individual to jail in order to coerce payment, he
would direct that the hot check defendant be
handcuffed and transported to the Pulaski County
Jail for a specific period of time (often 60, 90, or 120
days) or until the individual's outstanding court costs,
fines, and fees are paid.
26.
If the Sherwood District Court ordered
that a criminal defendant be incarcerated in the
Pulaski County Jail, it would then issue a "speed
letter." The form used to prepare the speed letter had
various blanks that could be filled in, including the
defendant's name, the relevant case number, the
charges, and the time of commitment ordered by the
Court. speed letters that ordered the commitment of
an individual who has failed to pay often included
only: the person's name; "FTP" (an abbreviation for
"failure to pay"); and the sentence containing a
number of days or payment of the amount owed, for
example, "90 days or $ l,000."
27.
At all relevant times, the prosecution in
the Sherwood District Court of hot check criminal
actions and the corresponding imposition of court
costs, fines, and fees resulted in substantial revenue
for SHERWOOD.

App. 36
28.
Upon information and belief, as of March
2011, there were more than 49,000 active hot check
cases in Sherwood District Court's criminal division,
which is approximately one (1) hot check related
criminal case for every eight (8) citizens (men, women
and children) living in Pulaski County at that time.
29.
Upon information and belief, at its
height, Sherwood Hot Check Division issued 35,000
warrants related to hot checks every year, which
equaled 96 per day, every day of the year during that
timeframe.
30.
For the calendar years of 2014 or 2015
approximately, costs, fees and fines included a $165
fine; $100 in court costs; $25 prosecutor's fee; $50
warrant fee; $20 Sherwood jail fee; and $20 county jail
fee. These costs, fees and fines total approximately
$380.
31.
Over the last several years, the
Sherwood District Court collected nearly $12 million
in court costs, fines, and fees assessed from hot check
defendants, money that is deposited directly into the
SHERWOOD's general fund. During this timeframe,
the Sherwood District Court claimed to handle 22,000
to 25,000 cases each year. For the 2015 fiscal year, the
combined receipts from court fines and forfeitures and
from the City Administration Justice Fund were
estimated to be approximately $2 million, which is
equal to approximately 11.4% of the total revenues
received by SHERWOOD into its General Fund and
the third-highest revenue source after city and county
sales taxes. This revenue was possible only by

App. 37
leveraging each hot check case into an astounding
number of collateral criminal cases for "failure to pay"
and "failure to appear."
32.
At all relevant times, this revenue, along
with tax receipts from city sales and property tax and
other monies held in the general fund, in tum, were
used by SHERWOOD to fund and operate various
citywide departments through which the Sherwood
District Court and its Hot Check Division operated.
33.
At all relevant times, court costs, fines,
and fees, tax receipts, and other monies held in the
general fund were also used by SHERWOOD to pay
its obligations to fund the Pulaski County Jail
pursuant to an inter-local agreement entered into by
SHERWOOD and other communities within Pulaski
County.
34.
The Sherwood Police Department is
physically adjacent to the Sherwood District Court. It
operates temporary holding cells to hold individuals
arrested by Sherwood Police Department officers for
up to roughly 24 to 48 hours, including those awaiting
transfer to the Pulaski County Jail. Any defendant
who is jailed by the Sherwood District Court for more
than a couple of days must be held in the Pulaski
County Jail. By ordinance passed by the City Council,
SHERWOOD designated the Sherwood Police
Department to be the agency that is primarily
responsible for the collection of fines imposed by the
Sherwood District Court.

App. 38
35.
At all relevant times, the Sherwood
Police Department functioned as an extension of
SHERWOOD's hot check collections scheme. Each
year the collections scheme operated officers of the
Sherwood Police Department arrested hundreds of
individuals on arrest warrants issued by the
Sherwood District Court across Pulaski County.
36.
At all relevant times, officers with the
Sherwood Police Department tracked down
individuals who owed money to the court at their
homes. The officers would tell the individual that they
will arrest them on a warrant issued by Sherwood
District Court unless the individual can make a
payment, in amounts ranging from $50 to hundreds of
dollars, on the spot. If the individual could afford to
pay, the officers would give them a court date instead
of arresting the individual. An individual who did not
have enough cash to pay was given the "opportunity"
to call the Hot Check Division directly and give a
credit card number over the phone. The poorest
individuals, who could not pay, were arrested and
taken to jail. According to Sherwood Police
Department records, at all relevant times, arrests on
"failure to pay" warrants were conducted pursuant to
Arkansas Code Annotated § 5-4-203, which was
repealed in 2009.
37.
At all relevant times, SHERWOOD and
the Sherwood District Court aggressively advertised
and promoted the operations of the Sherwood District
Court Hot Check Division to the local business
community and the general public throughout Pulaski
County. SHERWOOD listed the "Hot Check Division

App. 39
of the Sherwood District Court" as a "department" of
SHERWOOD on its website. The website contained
the following description of the goals and activities of
the Hot Check Division:
The Hot Check Division of the Sherwood
District Court prosecutes individuals and
businesses that write checks that cannot be
cashed due to closed accounts or insufficient
funds. This service is available to merchants
and individual victims within Pulaski County.
If you own a business that accepts a large
amount of checks for payment of goods or
services, you have experienced the problem of
receiving bad checks. Our hot check processing
service boast an 85% collection rate for all cases
handled. We can work to see that you receive
the money you are owed, and there is no cost to
you or your business. Our service is free of
charge as part of our many efforts to create and
maintain a business friendly environment here
in Sherwood.
Small businesses, which make up the largest
group in our business community, are
particularly vulnerable to the problem of bad
checks. Our goal is to stamp out this
impediment to doing business. It is a crime
under Arkansas Statute 5-37-302 to write a bad
check in the State of Arkansas. The Sherwood
Hot Check Division issues over 35,000
warrants annually on charges related to bad
checks.

App. 40
Our hot check processing service is often a last
resort for individuals, businesses, and
collection agencies. If you or your business is
experiencing a problem with bad checks, call us
first. We can help...
38.
Making it plain that SHERWOOD's and
the Sherwood District Court's interests in operating
this enterprise are both fiscal and punitive toward hot
check defendants, they expressly describe the local
business community as "our clients" for which they
work hard to create an effective service that provides
healthy financial returns.
FANT ET AL. V. CITY OF FERGUSON, 107
F.Supp. 3d 1016 (8th Cir. 2015)
39.
In Fant v. City of Ferguson, 107
F.Supp.3d 1016 (8th Cir. 2015) (hereafter “Fant”), a
United States District Court addressed a case
involving allegations against that the City of
Ferguson, Missouri had a policy which operated a de
facto debtor's prison resulting from the levying of
nominal ordinance violation fines into significantly
greater fines and periods of incarceration. The Fant
court denied the City of Ferguson's Federal Rule of
Civil Procedure 12(b)(6) motion to dismiss, and
finding that the Fant plaintiffs' Due Process and
Equal Protection claims stated a cause of action.
40.
damages.

The Fant plaintiffs sought monetary

App. 41
41.
The Eighth Circuit Court of Appeals
found that the Fant plaintiffs did not complain of
injuries caused by the state court judgment, but
rather injuries caused by the post- judgment
procedures the City of Ferguson employed to
incarcerate persons who were unable to pay fines.
Based on this finding, the Eight Circuit Court of
Appeals determined that the Fant plaintiffs' claims
were not barred by the Rooker-Feldman doctrine
(promulgated in Rooker v. Fidelity Trust Co., 263 U.S.
413, 44 S.Ct. 149 (1923) and D.C. Court of Appeals v.
Feldman, 460 U.S. 462, 103 S.Ct. 1303 (1983)) which
bars unsuccessful state court parties from seeking
what amounts to appellate review of the state
judgment in a federal district court.
42.
The Eighth Circuit Court of Appeals held
that the Fant plaintiffs' claims were not barred by the
Heck doctrine (promulgated in Heck v. Humphrey, 512
U.S. 477, 114 S.Ct. 2364 (1994)) which bars § 1983
plaintiffs from recovering damages for an allegedly
unconstitutional conviction or imprisonment, or for
other harm caused by actions whose unlawfulness
would render a conviction or sentence has been
reversed on direct appeal, expunged by executive
order, declared invalid by a state tribunal or called
into question by a federal court's issuance of a writ of
habeas corpus.
43.
As articulated within the four comers of
the instant complaint, PLAINTIFF does not challenge
her underlying hot check convictions or fines imposed
for those conviction(s).

App. 42
44.
As articulated within the four comers of
the instant complaint, PLAINTIFF does not allege
that her underlying hot check convictions or fines
were invalid.
45.
Rather, as articulated within the four
comers of the instant complaint, PLAINTIFF's
lawsuit
challenges
the
constitutionality
of
SHERWOOD's post-judgment municipal procedures
to collect money from hot check defendants, such as
PLAINTIFF.
46.
As articulated within the four comers of
the instant complaint, PLAINTIFF alleges that
SHERWOOD's procedures for enforcing those costs,
fees and fines, which included incarceration and
threats of incarceration, were invalid and
unconstitutional.
47.
Specifically,
as
asserted
infra,
PLAINTIFF alleges that her injuries were caused by
post-judgment procedures employed by SHERWOOD
to incarcerate persons, such as Plaintiff, who were
unable to pay excessive costs, fees and fines.
48.
PLAINTIFF challenges the improper
procedures that culminated in her post-judgment
incarceration.
49.
PLAINTIFF does not challenge any state
court judgments.
50.
In Fant, the Eighth Circuit Court of
Appeals stated that the Younger doctrine

App. 43
(promulgated in Younger v. Harris, 401 U.S. 37
(1970)) which states that except in limited
circumstances involving immediate irreparable
injury, federal courts should not enjoin state criminal
proceedings.
51.
In Fant, the Eighth Circuit Court of
Appeals stated that "'[b]y sentencing [a person] to
imprisonment simply because he could not pay the
fine without considering the reasons for the inability
to pay or the propriety of reducing the fine or
extending the time for payments or making
alternative orders, the court automatically tum[s] a
fine into a prison sentence,' in violation of the
Fourteenth Amendment."
52.
According to the Eighth Circuit Court of
Appeals in Fant, allegations that, pursuant to a City
policy and practice, a litigant was jailed for her failure
to pay a fine without any inquiry into her ability to
pay and without any consideration of alternative
measures state a claim which is facially plausible, per
the pleading standard articulated in Bell Atlantic
Corp. v. Twombly, 550 U.S. 544 (2007).
53.
In Fant, the Eighth Circuit Court of
Appeals stated "[t]he Supreme Court has held that
'absent a knowing and intelligent waiver, no person
may be imprisoned for any offense, whether classified
as petty, misdemeanor, or felony, unless he was
represented by counsel at his trial."'
54.
According to the Eighth Circuit Court of
Appeals in Fant, allegations that, pursuant to a City

App. 44
policy and practice, a litigant was neither informed of
a right to counsel nor appointed counsel in connection
with their incarcerations state a claim which is
facially plausible, per the pleading standard
articulated in Twombly.
55.
In Fant, the Eighth Circuit Court of
Appeals reaffirmed its holding that "'the Due Process
Clause forbids an extended detention without a first
appearance, following arrest by warrant,' and has
recognized that '[t]he consequences of prolonged
detention may be more serious than the interference
occasioned by arrest [because] [p]retrial confinement
may imperil the suspect's job, interrupt his source of
income, and imperial his family relationships.’”
56.
According to the Eighth Circuit Court of
Appeals in Fant, allegations of pre- appearance
detentions lasting days and weeks, in unreasonable
confinement conditions, state a claim which is facially
plausible, per the pleading standard articulated in
Twombly.
FACTUAL ALLEGATIONS
57.
At all relevant times, with the exception
of periods of incarceration of which she complains
herein, PLAINTIFF was employed and working fulltime in the hospitality industry. At all relevant times,
PLAINTIFF was the mother of five (5) minor children,
each of whom were dependent on her.
58.
In early 1997, PLAINTIFF "bounced"
approximately four (4) checks due to her having

App. 45
insufficient funds in her bank account. These bounced
checks were written to purchase life essentials, such
as clothing and food.
59.

At all relevant times, lasting many
years, PLAJNTIFF has been arrested on
approximately
eight
(8)
occasions,
totaling
approximately one-hundred and sixty (160) days of
incarceration, based on multiple criminal convictions
consistent with the practices described in Paragraphs
15-26, supra, from those approximately four (4)
bounced checks.
60.
PLAINTIFF was often unable to cover
these excessive costs, fees and fines.
61.
As
a
result
of
SHERWOOD's
unconstitutional actions, as fully alleged infra,
PLAINTIFF suffered the following hardships:
a) She was arrested and taken away in
front of her young children on several
occasions;
b) She and her husband lost their
interest in a family home;
c) She
and
her
family
paid
approximately $5000-6000;
d) She was arrested and taken away on
her minor daughter's birthday;
e) She received "FTAs" (an abbreviation
for failures to appear) due to her
incarceration, which served to
compound the crippling effect of

App. 46
SHERWOOD's
unconstitutional
actions; and
f) She suffered a loss of employment
opportunities and advancement.
62.
PLAINTIFF was arrested in December
2014 and not released until late January 2015, a
period of nearly thirty (30) days. PLAINTIFF was
released at that time only after paying
$2500 in cash, money that was obtained by her
husband from the sale of his interest in a family home.
63.
During PLAINTIFF's incarcerations for
hot check convictions, she was sexually harassed,
physically abused and suffered emotional distress as
a result of several incidents, which included
PLAINTIFF witnessing an inmate hang herself.
64.
Even when she was not incarcerated for
days at a time, PLAINTIFF suffered hardships in the
following forms:
a) She was arrested and bonded out four
(4) times when she was fortunate
enough to have money on her person
or obtainable on the spot;
b) She was accosted at her place of
employment on approximately twelve
(12) occasions, which caused her to
get written up by her employers, and
compromised her work environment;
c) She was extorted at work, and forced
to produce $200 or be arrested on the
spot; and

App. 47
d) She received no receipt for these
"payments," and they were never
reflected in her payment ledger.
65.
PLAINTIFF
damages, including:

suffered

significant

a) Her physical incarceration on no
fewer than eight (8) occasions;
b) Devastating financial damages for
her and her family;
c) Public,
familial
and
personal
humiliation;
d) Constant fear of arbitrary arrest and
incarceration for an indefinite period
of time;
e) Incarcerated
in
deplorable
conditions
for
arbitrary and
indefinite periods of time; and
f) Significant emotional distress and
psychological damages.
66.
PLAINTIFF’s
experiences
are
representative of hundreds of other poor individuals
living in Pulaski County.
DADE ET AL. V. CITY OF SHERWOOD ET AL.,
4:16-CV-602 JM
67.
On August 23, 2016, a class action styled
Dade et al. v. City of Sherwood, Arkansas, 4:16-CV602 JM (hereafter "Dade") was filed in the Eastern
District of Arkansas Federal District Court.

App. 48
68.
Dade challenged the propriety of the
Arkansas hot check statute, alleging violations of the
Due Process and Equal Protection Clauses of the
Constitution of the United States and Article 2,
Section 16, of the Constitution of the State of
Arkansas of 1874.
69.
Two days after the filing of the Dade
class action lawsuit, on August 25, 2016, PLAINTIFF
appeared before Judge Hale, with a still outstanding
balance for costs, fees and fines, all stemming from
prior hot check judgments. At the hearing, without
explanation, Judge Hale waived PLAINTIFF's entire
balance.
70.
On August 25, 2016, PLAINTIFF was
released from all of her financial obligations to
SHERWOOD stemming from her original hot check
convictions.
71.
Therefore, as of August 25, 2016, there
are no ongoing state proceedings in regard to
PLAINTIFF's allegations.
72.
As pled herein, PLAINTIFF is not
litigating her criminal convictions.
73.
As proof of the arbitrary nature of the
SHERWOOD's post-judgment collection scheme, on
August 25, 2016, after the filing of Dade, which
challenged the propriety of the Arkansas hot check
statute, and brought national attention thereto, Judge
Hale simply waived the remainder of money owed by
PLAINTIFF to SHERWOOD, even though

App. 49
PLAINTIFF had not satisfied the entire amount owed
at that time.
74.
The filing of the Dade class action
lawsuit and Judge Hale's subsequent act of waiving
PLAINTIFF's outstanding balance were the first
indications of the unconstitutionality of the
SHERWOOD policy authorizing the hot check
collections scheme, as well as the unconstitutionality
of the scheme itself.
75.
On June 8, 2017, Dade was dismissed
without prejudice, in part, based on the submitted
proposed
findings
and
recommendations
of
Magistrate Judge Joe J. Volpe, who found that the
Dade defendants' motion to dismiss should be granted
"to the extent that they were based on the Younger
abstention doctrine." See June 8, 2017 Order from
Dade et al. v. City of Sherwood, Arkansas (4:16-CV602 JM Doc. #90) attached hereto as Exhibit 1.
76.
In his January 24, 2017 Proposed
Findings and Recommendations, Magistrate Judge
Volpe found that all three (3) Younger factors were
met in Dade, including the presence of an "ongoing
state proceeding." See January 24, 2017 Proposed
Findings and Recommendations from Dade et al. v.
City of Sherwood, Arkansas (4:16-CV-602 JM Doc.
#59) attached hereto as Exhibit 2. Specifically,
Magistrate Judge Volpe stated "Plaintiffs have
ongoing criminal proceedings. They have the
opportunity to raise their constitutional arguments in
their state court proceedings." See Ex. 2 at p. 5.

App. 50
77.
On October 23, 2017, SHERWOOD,
through the City Council, voted unanimously to agree
to settlement agreement to resolve Dade.
78.
On November 14, 2017, SHERWOOD
was party to a "Stipulated Settlement Agreement"
(hereafter "Agreement") with the Dade plaintiffs. See
November 14, 2017 Stipulated Settlement Agreement
from Dade et al. v. City of Sherwood, Arkansas (4:16CV-602 JM Doc. #112-1), attached hereto as Exhibit 3.
SHERWOOD Mayor Virginal Hillman Young was
signatory to the Agreement, and, with her signature,
assured SHERWOOD's compliance with the
Agreement. See Ex. 3 at p. 20.
79.
Per the Agreement, SHERWOOD
represented that it: a) had full legal capacity to enter
into the Agreement; b) fully understood the
Agreement; and c) executed the Agreement
voluntarily after the opportunity to review it with its
attorneys.
80.
"Employees"
and
"officials"
SHERWOOD were bound by the Agreement.
81.
The
Agreement
SHERWOOD agreed:

reflects

of
that

a) to halt the jailing of defendants who
can't afford to pay court debts;
b) to halt the revocation of drivers'
licenses for failure to pay court debts;

App. 51
c) to
conduct
an
individualized
evaluation at sentencing of a
defendant's ability to pay;
d) to provide a clear advisement to
defendants of their right to counsel
prior to the entry of any plea and
their rights if they are unable to pay
their court debt;
e) to give defendants the option of
receiving a sentence of community
service;
f) to provide defendants who fall behind
in making payments an opportunity
to adjust their payment schedule or
waive remaining payments and an
opportunity to be resentenced to
community service; and
g) to maintain a publicly accessible
video recording of hot check court
proceedings.
82.
PLAINTIFF's legal financial obligations
to SHERWOOD were waived on August 25, 2016, over
a year prior to the entry of the Agreement.
83.
At all relevant times, it was the official
policy, practice and/or custom of SHERWOOD,
through its agents, officials and policymakers,
including members of the City Council:
a) to arrest, prosecute and imprison
persons who have been previously
sentenced to pay court costs, fines
and fees-but who have not done so

App. 52
because they cannot afford to paywithout making a proper inquiry into
whether those persons are able to pay
and without considering alternatives
to imprisonment, in violation of the
United States Constitution;
b) to jail indigent persons for failing to
pay monetary debts for court costs,
fines and fees that cannot pay,
without informing those persons of
their right to counsel, without
providing adequate counsel to
represent
them,
and
without
obtaining a knowing, intelligent and
voluntary waiver of the right to
counsel, in violation of the United
States Constitution;
c) to deny the minimum procedural
safeguards of due process before
charging, convicting, sentencing and
imprisoning persons who have been
previously sentenced to pay court
costs, fines and fees but who have not
done so because they cannot afford to
pay, in violation of the United States
Constitution;
d) to seek, issue and execute unlawful
arrest warrants in violation of the
Fourteenth Amendment to the
United States Constitution, against
persons who have been previously
sentenced to pay court costs, fines
and fees-but who have not done so
because they cannot afford to pay-

App. 53
without any inquiry into whether
those persons are able to pay;
e) to seek, issue and execute unlawful
post-judgment arrest warrants in
violation
of
the
Fourteenth
Amendment to the United States
Constitution, which have no bearing
on the validity of guilt in the
underlying case(s) or the propriety of
the amount of the fine(s) originally
assessed, and were entirely apart
from any judicial process, let alone
pursuant to a valid conviction and
sentence; and
f) to sentence indigent persons to
indefinite, extended and arbitrary
detentions,
without
a
first
appearance, in deplorable conditions,
following arrest by warrant, causing
these persons prolonged detention
that oftentimes is more serious than
the matter occasioned by the initial
arrest, and imperiling their jobs and
sources of income, while impairing
their family relationships.
84.
All
of
SHERWOOD's
actions
complained-of herein were pursuant to an official
municipal policy and caused PLAINTIFF's injuries.
85.
City Council meeting minutes further
demonstrate that the Sherwood District Court Hot
Check Division, the Sherwood Police Department, and
the City Council worked together strategically to fund

App. 54
SHERWOOD's departments in order to increase
revenue through the collection scheme, without
regard for the constitutional rights of PLAINTIFF and
others similarly situated.
86.
For example, on March 26, 2012, the City
Council considered Ordinance No. 1933, entitled, "AN
ORDINANCE CREATING ONE ADDITIONAL
WARRANT CLERK POSITION IN THE CITY OF
SHERWOOD POLICE DEPARTMENT." The meeting
minutes reflects that the warrant clerk position was
requested by Judge Hale at a City Council budget
committee meeting. At this meeting, Sherwood Police
Chief James Bedwell spoke to the City Council and
justified adding the position, asserting that the extra
clerk "would be helpful in serving the warrants to get
revenue coming in." In urging the City Council to pass
the ordinance, Mayor Virginia Hillman Young stated
that "if the position does not prove to pay for itself and
bring in additional revenue it will be removed." The
ordinance passed unanimously.
CLAIMS FOR RELIEF
87.
A city is liable under 42 U.S.C. § I 983
when city officials whose acts may fairly be said to
represent official policy adopt a custom or policy that
then causes a constitutional violation. Municipalities
cannot be held liable under § 1983 unless deliberate
action attributable to the municipality itself is the
moving force behind the plaintiffs deprivation of
federal rights. Such deliberate conduct may be shown
through a counsel vote, agency action, or similar
enactment, or a city may be liable for a custom that

App. 55
has obtained the force of law by virtue of the
persistent practices of state or local officials.
COUNT I
SHERWOOD Violated PLAINTIFF's Rights By
Jailing Her For Her Inability To Pay
SHERWOOD
88.
PLAINTIFF adopts and incorporates by
reference the allegations in Paragraphs 1 through 87
above.
89.
The Supreme Court has held that "the
Constitution prohibits the State from imposing a fine
as a sentence and then automatically converting it
into a jail term solely because the defendant is
indigent and cannot forthwith pay the fine in full."
90.
At all relevant times, including up to
August 25, 2016, SHERWOOD imprisoned citizens,
including PLAINTIFF, who have been sentenced to
pay court costs, fines and fees without making any
inquiry into whether they are able to pay and/or
notwithstanding their ability to pay.
91.
The Fourteenth Amendment's due
process and equal protection clauses have long
prohibited imprisoning a person for the failure to pay
money owed to the government if that person is
indigent and unable to pay. SHERWOOD violated
PLAINTIFF's rights by jailing her when she could not
afford to pay the debts allegedly owed from traffic and
other minor offenses.

App. 56
92.
SHERWOOD violated PLAINTIFF's
rights by imprisoning her, and by threatening to
imprison her, without conducting any inquiry into her
ability to pay and without considering alternatives to
imprisonment as required by the United States
Constitution. At any moment, a wealthier person in
PLAINTIFF's position could have paid a sum of cash
and been released from jail. SHERWOOD's policy and
practice of keeping PLAINTIFF in its jail unless and
until they are able to pay arbitrarily determined and
constantly-shifting sums of money violates the
Fourteenth Amendment.
COUNT II
SHERWOOD Violated PLAINTIFF's Rights
By Imprisoning Her Without Appointing
Adequate Counsel
93.
PLAINTIFF adopts and incorporates by
reference the allegations in Paragraphs 1 through 92
above.
94.
At all relevant times, SHERWOOD
maintained a policy, practice and/or custom of
systematically closing proceedings occurring in the
Sherwood District Court to the public, thereby
creating an atmosphere of confusion and intimidation.
95.
SHERWOOD's hot check defendants
were not, in any way, adequately informed of their
right to counsel or of the significance of signing the
waiver form. Sherwood District Court personnel did
not inform hot check defendants of the benefits of
counsel, did not inquire into a hot check defendant's

App. 57
indigency for purposes of eliciting the need for public
defender, and did not routinely elicit any on-therecord waivers of counsel. Sherwood District Court
personnel did not adequately inform indigent hot
check defendants and other indigent defendants of
their right to counsel and did not otherwise obtain
knowing, intelligent, and voluntary waivers of counsel
from hot check defendants prior to proceedings in
Sherwood District Court.
96.
As a result, indigent hot check
defendants, such as PLAINTIFF, regularly faced
prosecution, pled guilty, and were sentenced to jail,
suspended jail terms, probation, and fines, without
the benefit of counsel. Whether such prosecutions,
pleas, and sentencings occurred under the Arkansas
hot check statute, the Arkansas fine collection statute,
the Arkansas criminal contempt statute, the
Arkansas failure to appear statute, or otherwise,
many of the proceedings in the Sherwood District
Court took place without the assistance of counsel and
without a knowing, intelligent, and voluntary waiver
of the right to counsel.
97.
SHERWOOD violated the Sixth and
Fourteenth Amendments by jailing PLAINTIFF
without affording her the benefit of counsel or
obtaining a knowing, intelligent and voluntary waiver
of counsel. PLAINTIFF was not provided counsel at
the time she was incarcerated for failing to pay her
court-ordered fines. PLAINTIFF alleges that
SHERWOOD has a policy and practice of not
informing people of their right to counsel and not
appointing counsel in proceedings in which indigent

App. 58
people are ordered to be imprisoned in Pulaski County
Jail for non-payment, which are, in tum, based on
payment plans arising from other violations at which
Plaintiff was also unrepresented.
98.
SHERWOOD violated Plaintiffs' right to
the effective assistance of counsel under the Sixth and
Fourteenth Amendments to the United States
Constitution
by
jailing
PLAINTIFF
during
proceedings initiated by prosecutors at which
SHERWOOD did not have the benefit of counsel and
did not knowingly, intelligently, and voluntarily
waive counsel. SHERWOOD's policy of not providing
adequate counsel in proceedings in which indigent
people are ordered to be imprisoned in the Pulaski
County jail for non-payment, which are, in tum, based
on payment plans arising from traffic and other
violations at which the person was also
unrepresented, violates the Sixth and Fourteenth
Amendments to the United States Constitution.
COUNT III
SHERWOOD's Use of Indefinite and Arbitrary
Detention Violates Due Process
99.
PLAINTIFF adopts and incorporates by
reference the allegations in Paragraphs 1 through 98
above.
100. The Supreme Court has held that
"absent a knowing and intelligent waiver, no person
may be imprisoned for any offense, whether classified
as petty, misdemeanor, or felony, unless he was
represented by counsel at his trial." This holding is
applicable to "prosecutions for violations of municipal

App. 59
ordinances," and "[t]he denial of the assistance of
counsel will preclude the imposition of a jail sentence"
where the State fails to provide alternative procedural
safeguards (such as adequate notice of the importance
of ability to pay, fair opportunity to present, and to
dispute, relevant information, and court findings).
101. SHERWOOD violated the Due Process
Clause of the Fourteenth Amendment by its use of
indefinite and arbitrary detentions of persons who are
unable to pay debts owed. PLAINTIFF alleges that
SHERWOOD has a policy and practice of jailing
indigent persons owing debts to SHERWOOD
indefinitely and without any meaningful legal process
through which they can challenge their detention by
keeping them confined unless or until they could make
arbitrarily determined cash payments.
102. The Due Process Clause of the
Fourteenth Amendment prohibits SHERWOOD from
jailing PLAINTIFF indefinitely and without any
meaningful legal process through which she could
challenge her detention by keeping her confined in the
Pulaski County jail unless or until she could make
arbitrarily determined cash payments.

App. 60
COUNT IV
SHERWOOD's Use of Jail and Threats of Jail
To Collect Debts Owed To SHERWOOD
Violates Equal Protection Because It Imposes
Unduly Harsh And Punitive Restrictions On
Debtors Whose Creditor Is the Government
Compared To Those Who Owe Money to
Private Creditors
103. PLAINTIFF adopts and incorporates by
reference the allegations in Paragraphs 1 through 102
above.
104. SHERWOOD's hot check collections
scheme was extremely profitable to SHERWOOD,
earning it millions of dollars during the years of its
operation. It also trapped certain individuals for years
in a cycle of increased fees, debts, extortion, and cruel
incarcerations. The families of indigent people often
borrowed money to buy their loved ones out of jail at
rates set arbitrarily by jail officials, only for them later
to owe more money to SHERWOOD from increased
fees and surcharges. Thousands of people, like
PLAINTIFF, took money from their disability checks
or sacrifice money that was desperately needed by
their families for food, diapers, clothing, rent, utilities
and other life essentials to pay ever increasing court
fines, fees, costs, and surcharges. They were told by
SHERWOOD, through its agents, officials and
policymakers, if they did not pay, they would be
thrown in jail. The cycle repeated itself, month after
month, for years.

App. 61
105. The United States Supreme Court has
held that, when governments seek to recoup costs of
prosecution from indigent defendants, it may not take
advantage of their position to impose unduly harsh
methods of collection solely because the debt is owed
to the government and not to a private creditor. Not
only does SHERWOOD place indigent people on
generic and overly onerous payment plans lasting
years or decades when the cases of wealthier people
would be terminated, but by imposing imprisonment,
repeated threats of imprisonment, indeterminate
"payment dockets" for many years, extra and invalid
fees and surcharges, and other restrictions,
SHERWOOD takes advantage of its control over the
machinery of the Pulaski County jail and police
systems to deny debtors, like PLAINTIFF, the
procedural and substantive statutory protections that
every other Arkansas debtor may invoke against a
private creditor.
106. Many people like PLAINTIFF owing
money to SHERWOOD on old judgments have to
borrow money and go further in debt in order to pay
off SHERWOOD because other non-government
creditors are not permitted to jail them for nonpayment of debt. This coercive policy and practice
constitutes invidious discrimination and violates the
fundamental principles of equal protection of the laws.
COUNT V
SHERWOOD's Policy and Practice of Issuing
and Serving Invalid Warrants, Including Those
Solely Based on Nonpayment of Monetary

App. 62
Debt, Violates the Fourth and Fourteenth
Amendments.
l07. PLAINTIFF adopts and incorporates by
reference the allegations in Paragraphs 1 through I 06
above.
108. At all relevant times, it was the policy,
practice, and/or custom of SHERWOOD, through its
agents, officials and policymakers, including members
of the Sherwood Police Department, to serve and
execute arrest warrants for "failure to pay," "failure to
appear," and "failure to comply with probation" issued
by the Sherwood District Court that bear the
signature of the clerk of court and are not supported
by oath or affirmation attesting to probable cause that
a crime has been committed.
109. At all relevant times, SHERWOOD's
policy, practice and/or custom to issue and serve
arrest warrants against those who had not paid their
debt. These warrants are sought, issued, and served
without any inquiry into the person's ability to pay
even when SHERWOOD has prior knowledge that the
person is impoverished and unable to pay the debts
and possesses other valid defenses. These warrants
are regularly sought, issued, and served without any
finding of probable cause that the person has
committed the elements of any offense. SHERWOOD
chooses to pursue warrants instead of issuing
summons even when it has spoken to people on the
phone or in person and has the opportunity to notify
them to appear in court.

App. 63
110. SHERWOOD's policy of allowing
wealthy residents or residents who can afford to hire
an attorney to remove their warrants but refusing to
clear warrants for indigent people who cannot afford
those options is unlawful. Moreover, SHERWOOD's
policy, practice and/or custom of not presenting
arrestees in court or unreasonably delaying
presentment for days or weeks for no legitimate
reason is unlawful. These policies, practices and/or
customs violate the Fourth and Fourteenth
Amendments and result in a deprivation of
fundamental liberty without adequate due process.
WHEREFORE,
Plaintiff,
TAMATRICE
WILLIAMS, requests judgment against the
Defendant, SHERWOOD, and prays for the following
relief:
1. That SHERWOOD be required to pay
PLAINTIFF's compensatory damages;
2. That SHERWOOD be required to pay
economic and non- economic damages,
including but not limited, loss of liberty
interest and mental anguish;
3. That SHERWOOD be required to pay
punitive damages;
4. That SHERWOOD be required to pay
reasonable costs and attorney fees per 42
U.S.C. § 1988; and
5. That PLAINTIFF receive any other such
relief as this Honorable Court deems just
and proper.
Respectfully submitted,

App. 64
/s/
Michael J. Laux
Michael J. Laux
E. Dist. Arkansas Bar No. 6278834
One of the Attorneys for
PLAINTIFF
LAUX LAW GROUP
400 W. Capitol Avenue, Suite 1700
Little Rock, Arkansas 72201
Telephone: (501) 242-0750
Facsimile: (501) 372-3482
E-mail: mlaux@lauxlawgroup.com
mikelaux@icloud.com

App. 65
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
CHARLES DADE, et al.
vs.

PLAINTIFFS

No. 4:16-cv-602-JK-JJV

CITY OF SHERWOOD,
ARKANSAS; PULASKI
COUNTY ARKANSAS;
MILAS H. HALE, III, in
his Official and Individual
Capacities; and LARRY
JEGLEY In his Official
Capacity
DEFENDANTS
ORDER
Plaintiffs
challenge
the
post-conviction
collection methods of "hot check" cases in Pulaski
County, Arkansas. They argue that the postconviction debt collection system utilizes arrest and
incarceration to coerce payments from plaintiffs that
are unable to pay the fines, costs, and fees in a way
that violates their constitutional rights under the U.S.
and the Arkansas Constitutions. Plaintiff Phillip
Axelroth asserts a claim for illegal exaction under
Arkansas law arising out of the alleged misuse and
misapplication of public funds arising out of the hot
check cases.
This case was referred to U.S. Magistrate
Judge Joe J. Volpe for consideration and
determination of all pre-trial matters and for
EXHIBIT 1

App. 66
recommended disposition for the resolution of any
dispositive matters. At the time of the referral, each of
the defendants had filed motions to dismiss Plaintiffs'
amended complaint. Specifically, the City of Sherwood
and Milas H. Hale, III (the "Sherwood Defendants'')
filed a motion for judgment on the pleadings
(Document No. 15), Larry Jegley filed a motion to
dismiss (Document No. 25), and Pulaski County filed
a motion for judgment on the pleadings (Document
No. 28).1 After these motions were fully briefed,
Magistrate Judge Volpe submitted proposed findings
and recommendations (Document No. 59) in which he
recommended that the motions to dismiss be granted
to the extent that they were based on the Younger
abstention doctrine.2 Judge Volpe did not reach the
remaining issues in the motions and recommended
that the motions be denied in all other respects as a
result of the recommended abstention.
After the parties had an opportunity to submit
objections to the recommended disposition, as well as
responses to the objections, the Court held a hearing
at Plaintiffs' request to hear oral argument. After a de
novo review of the record, the Court is going to adopt
the recommended disposition and grant the motions
to dismiss to the extent that they are based on the
Younger abstention doctrine.
IT IS, THEREFORE, ORDERED that:
1.
Defendants' Motion for Judgment on the
Pleadings (Document No. 15), Motion to Dismiss for
1 The Sherwood Defendants also filed a motion to adopt
and incorporate by reference the arguments made by the other
defendants (Document No. 41); that motion is granted.
2 Younger v. Harris, 401 U.S. 37, 41 (1971).

App. 67
Failure to State a Claim (Document No. 25), and
Motion for Judgment on the Pleadings (Document No.
28) are GRANTED to the extent that they are based
on the Younger abstention doctrine, and DENIED in
all other respects.
2.
Defendants Milas Hale, III and the City
of Sherwood's Motion to Adopt (Doc. No. 41) the
arguments made in the other Defendants' briefs is
GRANTED.
3.
The Court declines to extend
supplemental jurisdiction over Plaintiff Axelroth's
remaining state law claims.
4.
Plaintiffs' motion to strike (Document
No. 75) is DENIED.
5.
The Sherwood Defendants' motion for
reconsideration (Document No. 78) is DENIED.
4.
This matter is DISMISSED without
prejudice.
2017.

IT IS SO ORDERED this 8th day of June,
/s/ James M. Moody Jr.
James M. Moody Jr.
United States District Court Judge

App. 68
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
CHARLES DADE, NAKITA
LEWIS, NIKKI PETREE,
LEEANDREW ROBERTSON,
and PHILIP AXELROTH,
individually and on behalf
of all others similarly
situated
PLAINTIFFS
v.

4:16CV00602-JM-JJV

CITY OF SHERWOOD,
ARKANSAS, et al.

DEFENDANTS

PROPOSED FINDINGS AND
RECOMMENDATIONS
INSTRUCTIONS
The following recommended disposition has
been sent to United States District Judge James M.
Moody, Jr. Any party may serve and file written
objections to this recommendation. Objections should
be specific and should include the factual or legal basis
for the objection. If the objection is to a factual finding,
specifically identify that finding and the evidence that
supports your objection. An original and one copy of
your objections must be received in the office of the
United States District Court Clerk no later than
fourteen days from the date of the findings and
recommendations. The copy will be furnished to the
EXHIBIT 2

App. 69
opposing party. Failure to file timely objections may
result in waiver of the right to appeal questions of fact.
If you are objecting to the recommendation and also
desire to submit new, different, or additional evidence,
and to have a hearing for this purpose before the
District Judge, you must, at the same time that you
file your written objections, include the following:
1.
Why the record made
Magistrate Judge is inadequate.

before

the

2.
Why the evidence proffered at the
hearing (if such a hearing is granted) was not offered
at the hearing before the Magistrate Judge.
3.
The details of any testimony desired to
be introduced at the new hearing in the form of an
offer of proof, and a copy, or the original, of any
documentary or other non-testimonial evidence
desired to be introduced at the new hearing.
From this submission, the District Judge will
determine the necessity for an additional evidentiary
hearing. Mail your objections and "Statement of
Necessity'' to:
Clerk, United States District Court
Eastern District of Arkansas
600 West Capitol Avenue, Suite A149
Little Rock, AR 72201-3325
DISPOSITION
I.
BACKGROUND
Plaintiffs assert that Defendants are using
"Hot Check Laws" to create "a debt enforcement and

App. 70
collection scheme that results in widespread arrests
and jailing, duplicative criminal prosecutions for
failure to appear at 'review hearings' and/or for late
payment of court costs, fines, and fees, and the denial
of due process for a steady stream of local citizens.”1
They argue that Defendants "imprison citizens who
have been sentenced to pay court costs, fines, and fees
without making any inquiry into whether they are
able to pay and/or notwithstanding their inability to
pay."2 Additionally, Plaintiffs contend that they are
routinely lined-up for cattle call hearings, required to
sign waivers of counsel, and marched into non-public
hearings which lack any official record of what
happened. They contend that they "do not have a
single advocate to whom to turn to understand and
assert their rights."3
Plaintiff, Philip Axelroth, who has never been
prosecuted under the "Hot Check Laws," argues that
"Defendants are also misusing and misapplying public
funds received from taxes paid by [him] and other
taxpayers in Sherwood, Arkansas, by arresting and
incarcerating individuals in the Pulaski County
Regional Detention Center" under the allegedly
unconstitutional scheme.4 He asserts that the "misuse
and misapplication of public funds constitute illegal
exactions under the Arkansas Constitution."5
Now pending are Defendants Milas Hale, ill
and the City of Sherwood's Motion for Judgment on
the Pleadings (Doc. No. 15); Defendant Larry Jegley's
1 Doc.

Id.
3 Id.
4 Id.
5 Id.
2

No. 1.

App. 71
Motion to Dismiss for Failure to State a Claim (Doc.
No. 25); and Defendant Pulaski County's Motion for
Judgment on the Pleadings (Doc. No. 28). Judge Hale
and the City of Sherwood also filed a Motion to Adopt
(Doc. No. 41) the arguments made in the other
Defendants' briefs. Plaintiffs have responded to each
Motion and Defendants have replied.6
After careful consideration of the pleadings and
for the reasons set out below, the Motions to Dismiss
should be GRANTED to the extent they rely on the
Younger abstention doctrine7 and DENIED in all
other respects.
II.

STANDARD OF REVIEW
A Federal Rule of Civil Procedure 12(c) motion
for judgment on the pleadings and a 12(b)(6) motion
to dismiss require the same review from a court.8
When considering a Rule 12(b)(6) motion to dismiss,
the court "accept[s] as true all of the factual
allegations contained in the complaint, and review[s]
the complaint to determine whether its allegations
show that the pleader is entitled to relief."9 A motion
to dismiss should not be granted because the
complaint "does not state with precision all elements
that give rise to a legal basis for recovery."10 A
6 Doc.

Nos. 45, 46, 47, 53, 54, 66.
v. Harris, 401 U.S. 37 (1971).
8 See Ginsberg v. InBev NV/SA, 623 F.3d 1229, 1233
n.3 (8th Cir. 2010) (“As a general rule, a Rule 12(c) motion for
judgment on the pleadings is reviewed under the same
standard as 12(b)(6) motion to dismiss”)
9 Schaaf v. Residential Funding Corp., 517 F.3d 544,
549 (8th Cir. 2008).
10 Schmedding v. Tnemec Co. Inc., 187 F.3d 862, 864
(8th Cir. 1999).
7 Younger

App. 72
complaint need only contain "' a short and plain
statement of the claim showing that the pleader is
entitled to relief."'11 "[O]nce a claim has been stated
adequately, it may be supported by showing any set of
facts consistent with the allegations in the
complaint."12 "While a complaint attacked by a Rule
12(b)(6) motion to dismiss does not need detailed
factual allegations, a plaintiff's obligation to provide
the 'grounds' of his 'entitle[ment] to relief requires
more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not
do."13
Under the Twombly "plausibility standard," the
allegations in a plaintiffs complaint must be evaluated
to determine whether they contain facts sufficient to
"nudge[] [his] claims across the line from conceivable
to plausible."14
III. DISCUSSIONS
A.
Younger Abstention Doctrine
Plaintiffs’
Amended
Complaint
makes
numerous allegations, and Defendants present a
number of reasons to dismiss the claims. However,
after careful consideration of the pleadings, I find
dismissal is appropriate pursuant to the Younger
abstention doctrine.15
(quoting Fed. R. Civ. P. 8(a)).
Atlantic Corp. v. Twombly, 127 S. Ct. 1955, 1969
(2007) (overruling language from Conley v. Gibson, 78 S. Ct. 99,
102 (1957), which stated , “a complaint should not be dismissed
for failure to state a claim unless it appears beyond doubt that
the plaintiff can prove no set of facts in support of his claim
which would entitle him to relief”).
13 Id. at 1964-65 (citations omitted)
14 Id. at 1974.
15 Younger v. Harris, 401 U.S. 37 (1971)
11 Id.

12 Bell

App. 73
Except Philip Axelroth, each Plaintiff admits
that he or she "still faces" unpaid costs, fines, and fees
and the "likelihood that [he or she] will be
incarcerated again in the future."16 Additionally,
Plaintiffs do not dispute Defendants' assertion that
“each Plaintiff is a defendant in a criminal proceeding
now pending before the Sherwood District Court ”
17

The Younger18 abstention doctrine requires a
federal district court to "abstain from exercising
jurisdiction when (1) there is an ongoing state
proceeding, (2) which implicates important state
interests, and (3) there is an adequate opportunity to
raise any relevant federal questions in the state
proceeding."19
I do not recommend dismissal lightly, as I
recognize that "[a]bstention from the exercise of
federal jurisdiction is the exception, not the rule."20
Abstention "is an extraordinary and narrow exception
to the duty of a District Court to adjudicate a
controversy properly before it." Abdication of the
obligation to decide cases can be justified under this
doctrine only in the exceptional circumstances where
the order to the parties to repair to the state court
would clearly serve an important countervailing
interest.21 But abstention “is also appropriate where
16 Doc.

No. 13
No. 26 (emphasis added).
18 Younger v. Harris, 401 U.S. 37 (1971).
19 Plouge v. Ligon, 606 F.3d 890, 8982 (8th Cir. 2010)
20 Colorado River Water Conservation Dist. V. U.S., 424
U.S. 800, 813(1976).
21 County of Allegheny v. Frank Mashuda Co., 360 U.S.
185, 188-189 (1959).
17 Doc.

App. 74
there have been presented difficult questions of state
law bearing on policy problems of substantial public
import whose importance transcends the result in the
case then at bar."22 "Finally, abstention is appropriate
where, absent bad faith, harassment, or a patently
invalid state statute, federal jurisdiction has been
invoked for the purpose of restraining state criminal
proceedings. . .”23
Turning to the Younger factors, I find all three
are met. Based on the allegations in the Amended
Complaint, I find there are ongoing state proceedings.
And these proceedings implicate important state
interests in overseeing its laws regarding the
prosecution of hot checks. Furthermore, Plaintiffs can
(and should) raise the federal questions regarding the
alleged unconstitutional enforcement practices by
exercising the adequate processes available to them in
state court. Plaintiffs "must present [their]
constitutional claims in [the state proceedings] 'unless
it plainly appears that this course would not afford
adequate protection."' 24 There is no reason to believe
that seeking a remedy through the Arkansas courts
would not afford Plaintiffs adequate constitutional
protections.
Plaintiffs argue that the Younger abstention
doctrine does not apply "because they do not seek to
have any sentence overturned, nor do they seek to
enjoin any criminal proceeding. Rather, Plaintiffs

814.
(1971)).

22 Colorado
23 Id.

River Water Conservation Dist., 424 U.S. at

at 816 (citing Younger v. Harris, 401 U.S. 37

24 Plouge, 606 F.3d at 893 (quoting Middlesex County
Ethics Comm. v. Garden State Bar Ass’n, 457 U.S. 423, 435)).

App. 75
seek to have declared unconstitutional, as a violation
of core due process, equal protection, and other U.S.
constitutional rights, the post-conviction debt
collection scheme" that continues to be practiced by
Defendants.25 Plaintiffs' position is unpersuasive.
Without question, enjoining the state court's
practices, as Plaintiffs request, would result in
enjoining these and other ongoing criminal cases.
However, the fact that Plaintiffs seek only declaratory
and injunctive relief does not require a different
result.26 Furthermore, Plaintiffs' argument that
prospective relief would not call into question the
legitimacy of their convictions is unavailing. The fact
remains that if Defendants' practices violated
Plaintiffs' due process rights, then the legitimacy and
validity of convictions (or, at the very least, the alleged
illegal fines) would be called into question. Plaintiffs'
attempts to limit the scope of this case to prospective
relief does not change this fact.
Plaintiffs have ongoing criminal proceedings.
They have the opportunity to raise their
constitutional arguments in their state court
proceedings. Such "opportunity'' includes a trial de
novo in the circuit court.27 But rather than appeal the
allegedly unlawful procedures under which their
convictions were obtained through the Arkansas court
system, Plaintiffs ask this Court to declare
''unconstitutional and unlawful" the proceedings that
resulted in their convictions and fines. In doing so,
Plaintiffs ask this Court to ignore a “vital
25 Doc.

No. 46
v. Mackell, 401 U.S. 66, 73 (1971).
27 Ark. Cont. Amend. 80, § 7(A)
26 Samuels

App. 76
consideration, the notion of ‘comity,’”28 while being
unwilling to pursue any avenue of state court process.
Plaintiffs' unwillingness to pursue any relief in state
court also fails to support a showing of "great and
immediate" irreparable injury.29
All of the claims made in Plaintiffs' Amended
Complaint could be properly presented in state court.
Notably, Plaintiffs have not disputed this fact.
Plaintiffs are required to do so under the law. Finally,
I do not find that any of the exceptions to the Younger
doctrine apply in this case. Therefore, Defendants’
Motion to Dismiss pursuant to the Younger abstention
doctrine should be GRANTED.
B. Philip Axelroth
Philip Axelroth asserts that Defendants'
allegedly unconstitutional actions mentioned above
constitute illegal exaction under Arkansas Code
Annotated § 16-123-105.30 Because the federal claims
should be dismissed, this Court should decline to
extend supplemental jurisdiction over Plaintiff's
state-law exaction claim.31
IV.

CONCLUSION

IT
THAT:

IS,

THEREFORE,

RECOMMENDED

v. Harris, 401 U.S. at 44.
at 46.
30 Doc. No. 13.
31 28 U.S.C. § 1367(c)(3) (“The district courts may
decline to exercise supplemental jurisdiction over a claim under
subsection (a) if . . . [it] has dismissed all claims over which it
has original jurisdiction.”).
28 Younger
29 Id.

App. 77
1.
Defendants' Motion for Judgment on the
Pleadings (Doc. No. 15), Motion to Dismiss for Failure
to State a Claim (Doc. No. 25), and Motion for
Judgment on the Pleadings (Doc. No. 28) be
GRANTED to the extent that they are based on the
Younger abstention doctrine, and DENIED in all
other respects.
2.
Defendants Milas Hale, III and the City
of Sherwood's Motion to Adopt (Doc. No. 41) the
arguments made in the other Defendants' briefs be
GRANTED.
3.
The Court should decline to extend
supplemental jurisdiction over Plaintiff Axelroth's
remaining state law claims.
4.
This matter should be DISMISSED
without prejudice.
IT IS SO RECOMMENDED this 24th day of January,
2017.
/s/ Joe J. Volpe
JOE J. VOLPE
UNITED STATED MAGISTRATE JUDGE

App. 78
STIPULATED SETTLEMENT AGREEMENT
This Stipulated Settlement Agreement (the
"Agreement") is made by and among Charles Dade,
Nikki Petree, Nakita Lewis, Lee Andrew Robertson,
and Philip Axelroth (hereinafter referred to
collectively as the "Plaintiffs"), the City of Sherwood,
Arkansas ("Sherwood'' or the "City"), and Judge Milas
H. Hale, III in his individual and official capacity (the
"Judge"), on behalf of themselves and each of their
respective heirs, successors, and assigns. All
"employees" who are hired by the District Court
Judge, irrespective of how they are paid, who have any
involvement for implementation and retention of the
practices outlined herein will cooperate and follow the
directives of the District Court Judge in the retention
of the practices outlined herein. To the extent the City
of Sherwood employs any individual who, as a matter
of Arkansas law, is considered an "employee" of the
City of Sherwood, or a City "official," as that term is
construed as a matter of Arkansas law, and who has
any involvement or control over the practices outlined
herein, that person will cooperate with and follow the
directives of the District Court Judge in the retention
of the practices outlined herein. However, in no event
does the City agree to be bound by any act or
omission of any person not considered an
“employee” or “official” of the City of Sherwood, as
those terms are construed under Arkansas law, who
may have involvement or control over the practices
outlined herein. The City of Sherwood explicitly does
not agree to be bound by any act or omission of any
person over whom it does not employ as an
EXHIBIT 3

App. 79
"employee," or who is not a City "official," as those
terms are construed under Arkansas law, for any act
or omission alleged to be in violation of this
Agreement
Plaintiffs, Judge Hale, and the City are from
time to time hereinafter referred to individually as a
"Party" and collectively as the "Parties."
WHEREAS. each of the named Plaintiffs. other
than Philip Axelroth, allege that they were
incarcerated because of an inability to pay fines, fees,
costs, and/or restitution (collectively, "legal financial
obligations" or "LFOs") imposed by the Sherwood
District Court (the “Court”), where Judge Hale
presides as the District Court Judge, for misdemeanor
offenses related to that Court’s “Hot Check” docket,
but allegedly were not afforded ability-to- pay
hearings or informed of their right to request counsel
prior to being jailed, and were not provided courtappointed counsel as indigent persons facing possible
incarceration for failure to pay LFOs; and
WHEREAS, Plaintiffs commenced an action by
filing a Complaint on August 23, 2016, in the United
States District Court for the Eastern District of
Arkansas (the "'Federal District Court") entitled Dade
et al. v. City of Sherwood et al., Case No. 4:16-cv00602-JM (the ''Lawsuit"), and, thereafter, filed a
First Amended Complaint on September 30, 2016 (the
"Amended Complaint"), seeking equitable relief and
alleging violations of, inter alia, Plaintiffs' rights to
due process and equal protection under the U.S.
Constitution and the Constitution of the State of
Arkansas of 1874; and
WHEREAS, Judge Hale and the City of
Sherwood have denied Plaintiffs' allegations and deny

App. 80
any and all liability arising out of Plaintiffs'
allegations; and
WHEREAS, Plaintiffs, Judge Hale, and the
City of Sherwood now desire to resolve the issues
raised in this Lawsuit as between themselves, without
further proceedings and without Judge Hale or the
City admitting to any of Plaintiffs' allegations; and
WHEREAS, the Parties have agreed to execute
a stipulation pursuant to Fed. R. Civ. P. 41(a)(1)(A)(ii)
dismissing this action with prejudice subject to the
terms of this Agreement.
NOW, THEREFORE, in reliance on the mutual
promises, covenants, and obligations as set out in this
Agreement, and for good and valuable consideration,
the Parties, through their representative counsel,
agree on the following terms and conditions.
*****
A.

PRACTICES:

Judge Hale states that he has adopted the
following practices in A.1 through A.27 below, and the
agreement herein is an agreement to continue these
practices.
Evaluation of ability to pay Legal Financial
Obligations;
procedures during initial appearance
1.
The Judge or any person that has any
involvement or control over the following practices in
paragraphs A.1 through A.27 below will continue the
practices in paragraphs A.1 through and A.27 noted
below: Whenever the Judge seeks to impose a

App. 81
sentence on a criminal or hot check case that includes
an LFO, the Judge or a designated employee of the
Sherwood District Court distributes to individual
defendants after the hearing on guilt or innocence the
“Sherwood District Court Unable to Pay Your Ticket
or Fine” document used by the Sherwood District
Court, attached hereto as Exhibit A, and made a part
hereof, and the "Affidavit of Ability to Pay," attached
hereto as Exhibit B, and made a part hereof.
2.
At sentencing, the Judge conducts an
individualized inquiry into each defendant's ability to
pay, taking into account the resources of the
defendant, including without limitation whether he or
she has a job or income and whether there are other
financial obligations that would impair the
defendant's ability to pay. In conducting an
individualized inquiry into ability to pay, the Judge
considers the information provided by the defendant
on that defendant's Affidavit of Ability to Pay. If a
defendant is unable to provide information the Judge
deems relevant at the time of the hearing, the Judge
will consider allowing the defendant (and, if
applicable, counsel) additional time to gather
information to respond to the Judge's questions. If,
after a defendant has received the documents
referenced in A.1, and the Court has reviewed the
Affidavit of Ability to Pay, the defendant proposes
through counsel that he or she can pay the LFOs
assessed or enter a payment plan, the Court may
confirm that payment on the terms indicated by
defense counsel is acceptable upon: 1) defense
counsel's representation that he/she has discussed
ability to pay with the client and 2) a description by
defense counsel of the information or evidence

App. 82
supporting the client's ability to pay. If the defendant
offers a payment plan, on his/her own, the Court will
make a brief inquiry on their ability to pay, as has
been its practice, and adopt that payment plan once it
is satisfied the defendant can afford to comply.
3.
Judge Hale will continue the Court's
practice of not jailing or detaining any defendant who
states that they are able to pay, but not pay in full, on
sentencing day. Such defendants are given the option
of paying LFOs through a monthly payment plan
administered by the Sherwood District Court. There
is no set minimum amount that Sherwood District
Court will accept as payment in monthly installments.
If a defendant agrees to a monthly payment plan,
Sherwood District Court will continue its practice of
providing a written copy of that plan following the
person's sentence.
4.
Defendants who state that they are
unable to pay their LFOs are given the option of
receiving a sentence of community service in lieu of
LFOs.
a)
If a defendant receives a sentence
of community service, that
defendant is given options as to
where he or she can perform the
service and an explanation as to
what the defendant must do.
Community service hours ordered
are proportionate to the violation
and reasonable in light of any
disabilities, driving restrictions,
transportation limitations, and
caregiving
and
employment
responsibilities of the individual.

App. 83
b)

If a defendant agrees to a
community service plan, he or she
will receive a written copy of that
plan
following
sentencing,
including the monetary value of
the hours of community service
performed and how community
service hours will be credited
toward the payment of the
defendant's LFOs.
5.
Defendants will not be subject to any
additional charges or interest for being placed, in
whole or part, on a community service plan or
payment plan.
6.
Beyond community service, and based on
consideration of the difficulties a defendant may have
in paying LFOs in light of the information obtained by
the Sherwood District Court through the ability-topay inquiry, the Judge will also consider alternatives
when considering a sentence, including reduction of
LFOs, waiver of LFOs, extension of time to pay, job
skills training, counseling, and other interventions.
7.
When a defendant provides evidence or an
affidavit establishing that he or she receives federal
or state public assistance, resides in a mental health
facility, and/or has income below the federal poverty
guidelines, such individual will be presumed unable
to pay his or her LFOs and eligible for waiver of any
LFOs that are not mandatory under state law.
However, other alternatives to LFOs as discussed in
paragraphs A.4 and A.6 may be considered by the
Sherwood District Court as possible sentences.
8.
When a defendant is placed on a payment plan
or community service plan, the Judge or a designated

App. 84
employee of the Sherwood District Court will confirm
and record the person's mailing address and telephone
numbers {including any cell phone numbers) in the
person's case file. The defendant will be advised that
he or she must notify the Court of any changes to his
or her mailing address or telephone numbers.
*****
Access to counsel
9.
Prior to the entry of any plea, in any
criminal or hot check case, Judge Hale shall continue
his practice of advising a defendant of the
incarceration, and the LFOs, that the defendant is
potentially facing, and advise the defendant that
he/she has the right to an attorney or a public
defender can be appointed at no cost if he or she
cannot afford counsel. If a defendant chooses the
assistance of a public defender, one will be appointed
to represent the defendant before there has been an
entry of a plea or a disposition of charges.
10.
Any determination that a defendant has
waived the right to counsel will be conducted orally
after the Judge:
a)
has advised the defendant of the
right to counsel, the costs and
benefits of proceeding without
counsel, and the maximum
possible LFOs and, if applicable,
incarceration, that may result
from proceeding without counsel;
and

App. 85
b)

has made a factual finding that
the defendant has knowingly and
voluntarily waived the right to
counsel.

*****
Evaluation of ability to pay Legal Financial
Obligations;
Order to Show Cause Procedures
11.
For each defendant sentenced to
payment or community service plans, but who has
missed or otherwise not kept up with payments or the
community service hours required, an employee of the
Sherwood District Court will continue their practice of
calling to inquire as to the defendant's status and
whether he or she needs to see the Judge to provide
updated information on his or her ability to pay LFOs
or ability to perform required community service. For
those who do not have a current phone contact number
on file, notice will be mailed to the last given address.
12.
The Judge will hold a review hearing for
individuals on community service. The Judge will hold
the hearing at least 30 days after the end of the period
for which the defendant was sentenced to community
service. Defendants who complete their community
service before the review date will not have to appear
if they turn in their proof of completion to the court
clerk's office before the review date.
13.
The Judge no longer holds review
hearings for persons on payment plans. If a person on
a payment plan fails to make two consecutive monthly
payments, or a person on a community service plan
fails to perform the required hours during two
consecutive months, and fails to respond to attempted

App. 86
contact from employees of the Sherwood District
Court regarding noncompliance. the Sherwood
District Court may cause to be served a written notice,
with an Order to Show Cause, to the person, directing
him or her to appear at the Court on a specified date
for a hearing at which she or he will be required to
explain his or her failure to comply with the terms of
the payment plan or community service plan.
14.
The Order to Show Cause is not an arrest
warrant. and no person will be subject to arrest or
detention at the time an Order to Show Cause is
served. The Form attached as Exhibit C will be
included with any Order to Show Cause that is served.
15.
At an Order to Show Cause hearing, the
Judge will advise the defendant that he or she has a
right to be represented by an attorney at no cost if the
defendant cannot afford one. At the hearing, the
Judge will conduct an updated individualized inquiry
into the defendant's ability to pay LFOs or whether
the defendant should receive an adjustment to the
community service hours ordered or to the schedule
for such community service. Defendants will be
permitted to complete an updated Affidavit of Ability
to Pay. Exhibit B, and the Judge will consider this
information in evaluating the defendant's ability to
pay.
16.
Individuals who state that they are no
longer able to pay LFOs will be eligible for reduction
or waiver of remaining payment amounts and will be
given the option to perform community service in lieu
of any amount not waived.
17.
The Judge will only order incarceration
of a defendant for failure to pay LFOs or complete
community service in the event that the Judge makes

App. 87
factual determinations on the record and written
findings that a failure to comply was willful.
Incarceration will only be ordered if the defendant
was represented by counsel or knowingly and
intelligently waived the right to counsel pursuant to
paragraphs A.9 and A.10 above.
18.
The Sherwood District Court will not
order a person's driver's license revoked for failure to
pay or failure to complete required community
service.
l9. The Judge or a designated employee of
the Sherwood District Court will request updated
contact information for any individuals appearing at
an Order to Show Cause Hearing and add that
information to the defendant's case file.
*****
Alterations to contempt procedures, arrest
warrants, and recall of prior warrants
20. The Judge may only consider assessing a
defendant with a failure-to-appear charge and
warrant for defendant's failure to appear in Court for
arraignment, plea, or trial on the original, underlying
hot check charges under AC.A.§ 5-37-301-307 or any
successor statute (“Arkansas Hot Check Law”), and
for failure to appear at any Show Cause hearings
where Show Cause notice was properly served. No
other failure-to-appear charges will be considered,
noticed, or adjudged by the Sherwood Court.
21.
The Judge will not enter or assess a
charge of contempt of court for a defendant's failure to
pay LFOs, unless, the Judge makes a factual
determination on the record, and written findings,

App. 88
that a failure to pay was willful. Incarceration can
only be ordered if the Defendant is represented by
counsel, or knowingly and intelligently waived the
right to counsel pursuant to paragraphs A.9 and A.10,
above.
22.
All arrest warrants for failure to pay,
failure to appear, and failure to comply with
probation, issued by the Sherwood District Court prior
to November 1, 2016 were recalled via directive of
Judge Hale and purged from any warrant database
system maintained by the City.
23.
As it pertains to criminal cases under the
Arkansas Hot Check Law, Judge Hale only issues
arrest warrants on a defendant's original criminal
charges under the Arkansas Hot Check Law and on
any failure-to-appear charge arising from a failure to
appear for the trial, plea, or arraignment for such
original criminal charges. However, Judge Hale
reserves the right to issue an arrest warrant on a
defendant's failure to appear at Show Cause hearings
where notice was properly served.
24.
For all open cases, which were open as of
the filing of the First Amended Complaint on
September 30, 2016, where restitution has been fully
paid, the Judge has waived or will waive any
remaining LFOs.
25.
For open cases, which were open as of the
filing of the First Amended Complaint on September
30, 2016, where restitution has not been paid, the
Judge will consider a person's ability to pay as
discussed herein, and that person may complete an
Affidavit of Ability to Pay, attached as Exhibit B. If a
defendant indicates he or she cannot pay restitution,
the Judge will permit the defendant to perform

App. 89
community service for the remaining amount of
restitution and waive any additional LFOs.
*****
Access to Courtroom
26.
The Sherwood District Court maintains
a video recording of all hearings of proceedings under
the Arkansas Hot Check Law held in the Court.
Recordings will be maintained for at least one year
and will be available to members of the public upon
request.
27.
Members of the public are permitted by
the Sherwood District Court to enter and observe the
Court's proceedings whether or not they have a
hearing scheduled before the Court. This provision
shall not apply to Sobriety or DWI Court staffings.
B.

JURISDICTION AND DISPUTE
RESOLUTION
Jurisdiction
1.
For a period of two years from the date of
the Parties' stipulation of dismissal of the Lawsuit
pursuant to paragraph D.11 of this Agreement, the
Federal District Court shall retain ancillary
jurisdiction, and the Parties agree to the jurisdiction
of the Federal District Court, solely for the purpose of
enforcing compliance with the terms of the
Agreement. Plaintiffs hereby waive any action they
may have hereinafter for breach of this Agreement
under state common law after the two-year period
specified in this Agreement.

App. 90
Resolution process for potential disputes
2.
In the event that a dispute arises regarding the
City's or the Judge's compliance with the Agreement,
the Parties shall follow the following process: (1)
Plaintiffs shall give the Sherwood District Court
written notice of any instance of alleged
noncompliance with this Agreement and an
opportunity to cure. (2) The Sherwood District Court
will review the issues identified by the notice and
make a good faith effort to resolve or correct any
failures to comply with the terms of this Agreement
within forty-five (45) days of receipt of such notice. (3)
If Plaintiffs do not believe the issues have been
resolved, Plaintiffs may request and the Parties agree
to meet, in-person and/or by telephone, to confer
within ten business days of such request in a good
faith effort to settle the dispute. (4) If the Plaintiffs do
not believe the meet and confer process resolves the
dispute and the Federal Court's jurisdiction under
paragraph B.1 above is still effective, Plaintiffs may
request and the Parties agree to hold an in-person
and/or telephonic mediation conference among
Plaintiffs, the Sherwood District Court, and the
Federal District Court (or a mediator assigned by the
Federal District Court) within thirty

D.

MISCELLANEOUS
1.
If any provision of this Agreement is
declared invalid or unenforceable by a court having
competent jurisdiction, it is mutually agreed that this
Agreement shall endure except for the part declared
invalid or unenforceable by order of such court, unless

App. 91
the elimination of the invalid provision shall
materially affect the intent of this Agreement. The
Parties to this Agreement shall consult and use their
best efforts to agree upon a valid and enforceable
provision that shall be a reasonable substitute for
such invalid or unenforceable provision in light of the
intent of this Agreement.
2.
No Party shall be deemed to be a
prevailing party of the Lawsuit for any purpose.
3.
The Parties expressly indicate an intent
to be bound by the terms of this Agreement, in their
official and individual capacity, and that the
Agreement is intended to avoid further litigation of
Plaintiffs' claims in the Lawsuit and be final and
complete.
4.
The Parties reserve their rights to assert
all arguments, claims, or defenses in the event that
the Federal District Court determines that the Parties
have not entered into a valid and enforceable
settlement agreement.
5.
This Agreement shall be deemed to have
been jointly drafted and no provision herein shall be
interpreted or construed for or against any Party
because such Party drafted or requested such
provision, or this Agreement as a whole.
6.
This Agreement contains the entire
understanding, and all of the terms and conditions
agreed upon by the Parties hereto, relating to the
subject matter and settlement of the Lawsuit. Neither
any oral agreement entered into at any time, nor any
written agreement entered into prior to the execution
of this Agreement, regarding the settlement or subject
matter of the Lawsuit shall be deemed to exist, or to

App. 92
bind the Parties hereto, or to vary the terms and
conditions contained herein.
7.
The Parties expressly represent and
warrant that they have full legal capacity to enter into
this Agreement, that they have carefully read and
fully understand this Agreement, that they have had
the opportunity to review this Agreement with their
attorneys and that they have executed this Agreement
voluntarily, without duress, coercion or undue
influence.
8.
The terms of this Agreement may not be
modified or amended except by a writing signed by
counsel for all Parties.
9.
The
construction,
interpretation,
operation, effect and validity of this Agreement, and
all documents necessary to effectuate it shall be
governed by the internal laws of the State of Arkansas
without regard to conflicts of laws.
10.
This Agreement may be executed in any
number of counterparts, each of which shall be
deemed an original but all of which together shall
constitute one and the same agreement. Signatures
that have been scanned and transmitted by electronic
mail shall be deemed valid and binding to execute this
Agreement.
11.
Within five business days of the full
execution of this Agreement, including the signatures
of all Parties and all of their acknowledging counsel,
and subject to the terms of this Agreement, the
Parties shall file a stipulation of dismissal with
prejudice of the Lawsuit with the Federal District
Court pursuant to Fed. R. Civ. P. 41(a)(l)(A)(ii). Such
stipulation shall attach as an exhibit thereto a copy of
the fully executed Agreement.

App. 93
For Plaintiffs
/s/ Charles Dade
Plaintiff Charles Dade
Date: 11-4-17
c/o Myesha Braden
LAWYERS’ COMMITTEE FOR
CIVIL RIGHTS UNDER THE LAW
1401 New York Avenue, N.W., Suite 400
Washington, D.C. 20005
/s/ Nikki Petree
Plaintiff Nikki Petree
Date: 11-9-17
c/o Myesha Braden
LAWYERS’ COMMITTEE FOR
CIVIL RIGHTS UNDER THE LAW
1401 New York Avenue, N.W., Suite 400
Washington, D.C. 20005
/s/ Nakita Lewis
Plaintiff Nakita Lewis
Date: 11-7-17
c/o Myesha Braden
LAWYERS’ COMMITTEE FOR
CIVIL RIGHTS UNDER THE LAW
1401 New York Avenue, N.W., Suite 400
Washington, D.C. 20005
/s/ Lee Andrew Robertson
Plaintiff Lee Andrew Robertson
Date: 11-7-17
c/o Myesha Braden
LAWYERS’ COMMITTEE FOR
CIVIL RIGHTS UNDER THE LAW
1401 New York Avenue, N.W., Suite 400
Washington, D.C. 20005

App. 94
/s/ Philip Axelroth
Plaintiff Philip Axelroth
Date: 11/8/17
c/o Myesha Braden
LAWYERS’ COMMITTEE FOR
CIVIL RIGHTS UNDER THE LAW
1401 New York Avenue, N.W., Suite 400
Washington, D.C. 20005
Acknowledged by Counsel for Plaintiffs
/s/ Bettina E. Brownstein
Bettina E. Brownstein
Date: 11-9-17
BETTINA E. BROWNSTEAIN LAW FIRM
904 West 2nd Street
Little Rock, AR 72201
/s/ Reggie Koch
Reggie Koch
Date: 11-10-17
THE KOCH LAW FIRM
2024 Arkansas Valley Drive, Suite 707
Little Rock, AR
/s/ Myesha Braden
Myesha Braden
Date: 11-9-17
LAWYERS’ COMMITTEE FOR
CIVIL RIGHTS UNDER THE LAW
1401 New York Avenue, N.W., Suite 400
Washington, D.C. 20005
/s/ J. Alexander Lawrence
J. Alexander Lawrence
Date: 11-10-17
MORRISON & FOERSTER LLP
250 West 55th Street

App. 95
New York, NY 10019
For Defendants
/s/

Defendant
Date: 10/27/17 c/o

/s/

Defendant
Date: 10/27/17 c/o

Acknowledged by Counsel for Defendants
/s/

Counsel

Counsel
Date: 10/30/17
Date:

App. 96
EXHIBIT A
SHERWOOD DISTRICT COURT
UNABLE TO PAY YOUR TICKET OR FINE
If you requested a fine payment plan, but your
circumstances change, and you are unable to pay your
fine, the court can allow you to work the fine off in the
form of community service. For each day of community
service worked, you will be given at least $40.00 credit
toward your tine. (For example, if your fine is $400.00
and you request community service as the way to pay
it you will be assigned 10 days of service work or less.)
The community service can be done at a location near
your home or work, or at a court-selected place. You
will be given a form for the supervisor of the
community service to sign verifying the day(s)
performed.
The judge win set a review date for you to
inform the Sherwood District Court that you finished
the community service. You may appear in person on
the assigned date. If you appear but have not
completed the days assigned, the court will give you
an extension and a new review court date. No one will
be committed to jail for failure to pay fines or complete
their community service, unless the court, after a
hearing*. determines the conduct not to pay the fines,
or complete the community service, was willful.
If you complete the assigned days before your
court date, simply tum in, in person, or mail in the
community service sheet to the Sherwood Court

App. 97
Clerk, and you will not have to participate in the
review hearing.
If you are on a payment plan or doing
community service, and find that you need an
adjustment in the amount you pay or days of
community service, please contact the court
immediately at (501) 835-0898. You will be given a
court date to discuss the matter with the judge.
*If the Court schedules a hearing because of
non-payment, your ability to pay will be a crucial
issue. The court may inquire about your finances to
include, but not limited to: income, expenses (i.e., rent,
childcare,
utilities,
clothing,
food,
medical
conditions/bills, transportation etc.,) bank accounts,
and other assets. The court may also inquire about
your efforts to obtain money to pay, including your job
skills, and efforts to apply for jobs. The judge will give
you an Affidavit to complete, and a meaningful
opportunity to be heard on the question of your
financial circumstances. You should also present any
documents that you want the judge to consider.
Consult an attorney before coming to your
hearing. If you cannot afford an attorney the court will
appoint the Public Defender at no cost to you.
PLEASE NOTE. You are responsible for making
sure the court has your correct address,
telephone number, and e-mail Please notify us
immediately of any change of address,
telephone number, or email.

App. 98
SHERWOOD DISTRICT COURT
AFFIDAVIT OF ABILITY TO PAY
Exhibit B

CASE NO.

Name

Date of Birth:

Address:

City

Last 4 digits of
SSN#:
Zip:

Phone:

Fax:

E-mail:

Employer:

Work Phone:

Other
Employment:

Work Phone:

Length of
Employment:
Length of
Employment:

ASSETS
Vehicle 1: (Make, Model, Present value:
Year)
Vehicle 2: (Make, Model, Present value:
Year)
Present value:
Boat, Jet ski,
Motorcycle, 4-wheeler:
Present value:
Home, Other Real
Estate
Savings/Cash/Checking Present value:
Monthly Income
Net Monthly Income
(Self)
Net Monthly Income
(Spouse)

Monthly Expenses
Mortgage
Vehicle Payments

App. 99
Child Support/ Alimony
Received
Social Security/
Disability Received
Other Income:
Total Income

Utilities
Child Support/Alimony
Payments:
Food:
Other Payments: (Credit
Cards)
Total Expenses

I,
, swear that the information
provided herein in true, to the best of my knowledge
and recollection. I understand that furnishing false
information under oath, may subject me to

App. 100
EXHIBIT C [For inclusion with Order the Show
Cause]
SHERWOOD DISTRICT COURT
UNABLE TO PAY YOUR TICKET OR FINE
You are receiving this notice because you have
missed monthly payments to Sherwood District Court
under your payment plan or because you have not
performed required community service hours. The
Court has directed you to appear on the specified date
to explain why you have missed making payments or
not completed scheduled community service hours.
This notice is not an arrest warrant. No one will
be committed to jail for failure to pay fines or complete
their community service, unless the court, after the
hearing, determines the conduct not to pay the fines,
or complete the community service, was willful. At the
hearing, your ability to pay will be a crucial issue. The
court may inquire about your finances to include, but
not limited to: income, expenses (i.e., rent, childcare,
utilities, clothing, food, medical conditions/bills,
transportation etc.,) bank accounts, and other assets.
The court may also inquire about your efforts to obtain
money to pay, including your job skills, and efforts to
apply for jobs. The judge will give you an Affidavit to
complete, and a meaningful opportunity to be heard
on the question of your financial circumstances. You
should also present any documents that you want the
judge to consider.
Consult an attorney before coming to any
hearing for non-payment or failure to complete
community service. If you cannot afford an attorney

App. 101
the court will appoint the Public Defender at no cost
to you.
If you requested a fine payment plan, but your
circumstances change, and you are unable to pay your
fine, the court can allow you to work the fine off in the
form of community service. For each day of community
service worked, you will be given at least $40.00 credit
toward your fine. (For example, if your fine is $400.00
and you request community service as the way to pay
it you win be assigned 10 days of service work or less.)
The community service can be done at a location near
your home or work, or at a court-selected place. You
will be given a form for the supervisor of the
community service to sign verifying the day(s}
performed.
PLEASE NOTE. You are responsible for
making sure the court has your correct address,
telephone number, and e-mail. Please notify us
immediately of any change of address,
telephone number, or email.

